<html>
<title> - [H.A.S.C. No. 111-5] ARMY AND MARINE CORPS FORCE PROTECTION PROGRAMS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                          [H.A.S.C. No. 111-5] 

                         ARMY AND MARINE CORPS 

                       FORCE PROTECTION PROGRAMS 

                               __________

                             JOINT HEARING

                               BEFORE THE

                    AIR AND LAND FORCES SUBCOMMITTEE

                          MEETING JOINTLY WITH

             SEAPOWER AND EXPEDITIONARY FORCES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            FEBRUARY 4, 2009

                                     
                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

50-822 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 

                                   
  




















                    AIR AND LAND FORCES SUBCOMMITTEE

                   NEIL ABERCROMBIE, Hawaii, Chairman
JOHN SPRATT, South Carolina          ROSCOE BARTLETT, Maryland
SILVESTRE REYES, Texas               CATHY McMORRIS RODGERS, Washington
ADAM SMITH, Washington               MARY FALLIN, Oklahoma
MIKE McINTYRE, North Carolina        DUNCAN HUNTER, California
ELLEN O. TAUSCHER, California        JOHN C. FLEMING, Louisiana
ROBERT A. BRADY, Pennsylvania        MIKE COFFMAN, Colorado
JIM COOPER, Tennessee                HOWARD P. ``BUCK'' McKEON, 
JIM MARSHALL, Georgia                    California
DAN BOREN, Oklahoma                  W. TODD AKIN, Missouri
JOE SESTAK, Pennsylvania             JEFF MILLER, Florida
GABRIELLE GIFFORDS, Arizona          JOE WILSON, South Carolina
NIKI TSONGAS, Massachusetts          FRANK A. LoBIONDO, New Jersey
LARRY KISSELL, North Carolina        ROB BISHOP, Utah
FRANK KRATOVIL, Maryland             MICHAEL TURNER, Ohio
ERIC MASSA, New York
BOBBY BRIGHT, Alabama
                  Doug Bush, Professional Staff Member
                      Ben Glerum, Staff Assistant
                                 ------                                

             SEAPOWER AND EXPEDITIONARY FORCES SUBCOMMITTEE

                   GENE TAYLOR, Mississippi, Chairman
SOLOMON P. ORTIZ, Texas              W. TODD AKIN, Missouri
JAMES R. LANGEVIN, Rhode Island      ROB WITTMAN, Virginia
RICK LARSEN, Washington              ROSCOE G. BARTLETT, Maryland
BRAD ELLSWORTH, Indiana              J. RANDY FORBES, Virginia
JOE COURTNEY, Connecticut            DUNCAN HUNTER, California
JOE SESTAK, Pennsylvania             MIKE COFFMAN, Colorado
GLENN NYE, Virginia                  THOMAS J. ROONEY, Florida
CHELLIE PINGREE, Maine
ERIC J.J. MASSA, New York
               Jesse Tolleson, Professional Staff Member
                  Elizabeth Drummond, Staff Assistant



















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Wednesday, February 4, 2009, Army and Marine Corps Force 
  Protection Programs............................................     1

Appendix:

Wednesday, February 4, 2009......................................    41
                              ----------                              

                      WEDNESDAY, FEBRUARY 4, 2009
            ARMY AND MARINE CORPS FORCE PROTECTION PROGRAMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Abercrombie, Hon. Neil, a Representative from Hawaii, Chairman, 
  Air and Land Forces Subcommittee...............................     1
Akin, Hon. W. Todd, a Representative from Missouri, Ranking 
  Member, Seapower and Expeditionary Forces Subcommittee.........     9
Bartlett, Hon. Roscoe G., a Representative from Maryland, Ranking 
  Member, Air and Land Forces Subcommittee.......................     7
Taylor, Hon. Gene, a Representative from Mississippi, Chairman, 
  Seapower and Expeditionary Forces Subcommittee.................     6

                               WITNESSES

Brogan, Brig. Gen. Michael M., USMC, Commander, Marine Corps 
  Systems Command, Program Executive Officer, MRAP Joint Program 
  Office, U.S. Marine Corps......................................    12
Lennox, Maj. Gen. Robert, Assistant Deputy Chief Of Staff, G-3/5/
  7, U.S. Army, Accompanied By Brig. Gen. Peter N. Fuller, USA, 
  Program Executive Officer, Soldier, Commanding General, Soldier 
  Systems Center, U.S. Army, and Kevin M. Fahey, Program 
  Executive Officer, Combat Support & Combat Service Support.....     9

                                APPENDIX

Prepared Statements:


    Brogan, Brig. Gen. Michael M.................................    62
    Lennox, Maj. Gen. Robert, joint with Brig. Gen. Peter N. 
      Fuller and Kevin M. Fahey..................................    50
    Taylor, Hon. Gene............................................    45

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Abercrombie..............................................    77
    Mr. Massa....................................................    78
    Mr. Taylor...................................................    77
    Mr. Wittman..................................................    78

Questions Submitted by Members Post Hearing:

    Mr. Abercrombie and Mr. Taylor...............................    81
    Mr. Bartlett.................................................    88
    Ms. Giffords.................................................    90
    Ms. Shea-Porter..............................................    90
    Ms. Tsongas..................................................    94
    Mr. Wilson...................................................    88
            ARMY AND MARINE CORPS FORCE PROTECTION PROGRAMS

                              ----------                              

        House of Representatives, Committee on Armed 
            Services, Air and Land Forces Subcommittee, 
            Meeting Jointly with Seapower and Expeditionary 
            Forces Subcommittee, Washington, DC, Wednesday, 
            February 4, 2009.
    The subcommittee met, pursuant to call, at 3:00 p.m., in 
room 2118, Rayburn House Office Building, Hon. Neil Abercrombie 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. NEIL ABERCROMBIE, A REPRESENTATIVE 
    FROM HAWAII, CHAIRMAN, AIR AND LAND FORCES SUBCOMMITTEE

    Mr. Abercrombie. Hello, everybody. Thank you so much for 
your patience. We were a little bit too optimistic in terms of 
the classified briefing that we were going through up until 
now, and it necessitated us being a bit longer to come here 
than we intended.
    And again, I want to emphasize our appreciation, Mr. Taylor 
and myself and the members.
    We are coming to order for our first subcommittee meeting 
of this session of the Congress. We are holding a joint hearing 
on the Army and Marine Force Force Protection Programs.
    We are joined, of course, with the Seapower and 
Expeditionary Forces Subcommittee under Mr. Taylor, to receive 
testimony today on force protection programs from witnesses 
representing the Army and the Marine Corps.
    If members will look at the witness list, there is an 
extensive number of witnesses, but we are going to have 
singular speakers. And some of the witnesses are there to 
provide perspective, observations, backup, et cetera, and to 
answer questions or comment on observations of the members.
    In addition, should there be questions or observations 
which need commentary arising, we have the Deputy Director of 
the Live Fire Test and Evaluation and Deputy Inspector General 
for Auditing, as it proves appropriate and useful.
    For the Army, may I ask just who is going to be speaking 
for the Army? Will it be Major General Lennox?
    General Lennox. It is, sir.
    The Chairman. And for the Marine Corps, it will be Major 
General Brogan, right?
    General Brogan. Sir, I am still a Brigadier General, but 
yes.
    The Chairman. I beg your pardon, it is Brigadier General. 
Well, we can change that. I am engaged in sympathetic magic, 
General.
    The testimony then, obviously, will include the status and 
effectiveness of force protection equipment, both in Iraq and 
looking--you can look forward or project forward to Afghanistan 
or elsewhere, if you wish, as well--with particular focus on 
tactical vehicle and personnel body armor initiatives.
    I want to say, for those who are new members, that this 
committee--this subcommittee and its counterpart, and Mr. 
Taylor and Mr. Bartlett--in terms of my personal experience, 
has been in the forefront of providing necessary nonpartisan--
we don't use the word ``bipartisan'' in our committee, we use 
``nonpartisan.'' We don't believe that questions of life and 
death and the national strategic interests where the armed 
service is concerned is a question of partisanship in any 
respect--the full spectrum of force protection matters.
    For a number of years, members have been aggressively 
urging the Pentagon to be more proactive in fielding Counter 
Improvised Explosive Device (IED) systems, better personal body 
armor, better helmets, add-on armor to tactical vehicles; and 
adding intelligence in this respect as well--intelligence, 
surveillance and reconnaissance systems (ISR)--to Iraq and 
Afghanistan. And we have had the added advantage of having the 
Chair of the Intelligence Committee serving on Armed Services, 
as well, in Mr. Reyes.
    I go through some of this preliminarily for the witnesses, 
not because you don't know any of these things, but because the 
public at large, of course, is viewing and listening and 
hopefully understanding what is going on; and we are trying to 
provide a perspective, and also one for new members, as I said.
    Too often the Pentagon's and the military services' 
discussions and promises of transformation in joint programs 
have not necessarily been met because of what I would call 
``grinding bureaucracy'' and failure to overcome individual 
service cultures. I do believe that that is a difficulty that--
in other words, there has been some partisanship on the part of 
the Pentagon, I think, maybe even more so than there has been 
in the political arena, in the electoral political arena, and 
that needs to be overcome.
    So today's hearing will continue our efforts to assure that 
our personnel--and I say our personnel, not the military's 
personnel, those people serving in the interests of the United 
States of America--have the very best equipment possible.
    We are told that equipment deemed operationally suitable in 
Iraq may not be operationally suitable in Afghanistan. The 
operational environment in Afghanistan differs from that of 
Iraq in very significant ways, including a less-developed 
transportation infrastructure, higher and more rugged terrain. 
This places greater demands on personnel and equipment; it 
requires modification with regard to tactics, techniques, 
procedures to address specific threats; and it requires 
continuing oversight by the Armed Services Committee.
    We ask that the witnesses provide testimony on what they 
see as the unique equipment requirements of Afghanistan and how 
they are addressing those equipment requirements in a timely 
way and how we can be helpful in that regard.
    We hope to not replicate previous delays in getting proper 
equipment fielded for our personnel, and we don't want to go 
through what we did go through previously in terms of having to 
have hearings in order to expedite or to bring focus to these 
questions.
    Regarding the Mine Resistant Ambush Protected (MRAP) 
Vehicles, commonly known as MRAPs--again, Mine Resistant Ambush 
Protected Vehicles--$24 billion has been authorized and 
appropriated for these vehicles. Over 15,000 vehicles have been 
produced in just under 2 years, with approximately 10,000 MRAP 
vehicles being fielded in Iraq and 2,000 currently in 
Afghanistan.
    These vehicles have saved lives and may save more, and are 
considered to be the most survivable vehicle class in theater. 
However, these MRAP vehicles are heavy and they are wide, and 
they have been altered in various and sundry ways and come in 
various versions. Operational feedback from theater has 
indicated a need for a lighter weight, smaller and narrower 
version, if possible, of the MRAP, especially for Afghanistan.
    My mother used to say, if wishes were horses, we would all 
be riding. So we know what we are looking for. Whether that is 
possible, whether we need to bend laws of physics--which my 
good friend, Mr. Bartlett, would say is impossible and will no 
doubt comment on it if he thinks that is the case--we want to 
make sure that we are not trying to say we can do something we 
can't do. We don't want to mislead anyone.
    At the same time, the MRAP vehicle requirement in 
Afghanistan continues to increase, we are told. The word we 
have now is that the requirement is for at least 2,900 
vehicles. This is before any changes which may occur in the 
strategic environment, let alone the political environment, 
that will unfold in the weeks and months to come.
    We are also very concerned and have the advantage again of 
having the Readiness Chairman with us as well, where we are 
dealing with spare parts, distribution, rollover accidents, 
repair, maintenance depot questions with regard to the vehicles 
and personnel.
    We understand that there is a program now to field a 
lighter MRAP variant. We don't want to fall into something 
where we are going to be told, as we have with other programs, 
everything is on schedule and on budget. If it is not on 
schedule and it is not on budget, or it is not on schedule 
because we are not able to do what we hoped we could do, we 
need to be told what we need to know.
    We expect to receive updates on this program today and on a 
continuing basis so that we can better understand the 
acquisition strategy, the fielding plan, and what we can do to 
be helpful.
    With regard to soldier equipment, recent media reports have 
indicated that in Afghanistan soldiers routinely carry loads 
from 130 to 150 pounds for a 3-day mission. We have previously 
received testimony that personnel can wear only so much armor 
beyond which their operational effectiveness is inhibited, 
which, in turn, increases their risk of being injured.
    We expect to receive updates and efforts to lighten the 
load of soldier and marine without sacrificing their safety. 
For our purposes today, we are not talking about whether it 
makes tactical sense to even have military personnel operating 
in that kind of environment under those kinds of circumstances; 
we won't explore that today, but that is a policy issue when we 
may be expecting something to occur because we want a political 
outcome, and we are asking military personnel to effect that 
outcome perhaps in ways that are not appropriate. But that will 
be the subject taken up in other venues.
    Finally, despite the fact that the committee has received 
continued assurances of body armor systems effectiveness from 
the Department of Defense (DOD) and the military services over 
the past several years in hearings, briefings and personal 
conversations, body armor effectiveness continues to be an 
issue, which I am sure is no news to anybody who is going to be 
testifying today.
    Most recently, the Department of Defense Inspector General 
(DOD IG)--and when I say ``recently,'' I am talking January of 
this year--report stated that if standardized procedures for 
body armor were consistently followed by the Army, three-plate 
designs procured under one contract would have failed first 
article testing, affecting 16,000 sets of body armor plates. I 
bring that up again because that is out there, people know 
that, members may be aware of it.
    I understand, as well, it depends on how you start defining 
things and what criteria you use and what protocols were in 
place, and I am sure that will be gone into.
    But I bring it up because this is the kind of thing that 
becomes part of the conversation that takes place, and we have 
to answer for that on the committee. The DOD IG, the inspector 
general, recommended that the Army remove the body armor plates 
in question from the inventory. We need to address that.
    The Office of the Director of Operational Test and 
Evaluation, the DOT&E, the Department of Defense's testing 
expert, reviewed the three tests and disagreed with the DOD IG. 
So the DOT&E concluded that the plates met the contract 
performance specifications, although agreed that there were 
significant issues in the Army's testing documentation process 
and scoring analysis.
    Again, I bring this to the attention of the public at large 
and to the members because this is the kind of thing that we 
have to then resolve when it comes to putting a defense bill 
together; and we want to make the right decision, because 
decisions that this subcommittee makes and the committee as a 
whole makes are life-and-death issues. And I know that you are 
as vitally concerned about that as we are and take it as 
soberly and as seriously as we do.
    And so I am going to take it that the testing and 
evaluation branch and the inspector general branch are both 
operating on the basis of professional competence and 
commitment and determination to persevere in that regard. So it 
puts us in a dilemma, and we need your professional 
observations and commentary.
    We understand the Secretary of the Army has requested the 
Deputy Secretary of Defense to adjudicate the issue. I am not 
sure that is the right way to go. I am not interested in 
adjudication, we are interested in what do we need to do in 
terms of policy that we put into the defense bill that is going 
to advance the interests of the personnel involved.
    In the interim, the Secretary has issued a precautionary 
order to identify, collect and return the plates in question 
while the matter is being adjudicated. I am not sure that that 
advances what this committee's work is going to be.
    I regret having to go into such detail about this, but we 
have a lot of new members, and the public is not necessarily 
aware of all these things; and I want you to know what is on 
our plate right now.
    Why the Office of the Secretary of Defense (OSD) authorized 
the release of the Inspector General's report with its own 
testing director disagreeing with its own inspector general is 
not known to me, but many things are not known to me in the 
Pentagon. I realize there are no politics involved in the Army 
or the Marine Corps, so this may be an obscure corner for you. 
Perhaps politics of some kind was involved in that, but we 
can't allow that to affect our decisions.
    Given the critical importance of the issue, we would like 
to see prompt action taken to resolve this body armor testing 
issue. That is the reason I am bringing it to your attention 
today; we want to have answers.
    What direction should we go? None of the members on this 
subcommittee, let alone the committee as a whole, is going to 
do any of this testing. We are totally and completely reliant 
upon your professional understanding of what is required for 
military personnel as translated or transposed into the defense 
bill. And then we have to make that recommendation to Mr. 
Skelton and the committee as a whole and then on to the 
appropriators. So we are counting on you to have this issue 
resolved.
    The number of body armor plates in question comprises a 
very small percentage of the total number of the plates 
procured, about two percent, but the implication is the Army is 
not fully testing plates and allowing them to go into the hands 
of our soldiers. So the whole program gets brought into 
question, even though it may not be entirely the case.
    Because of continued concern with the Army development 
testing process for body armor, the committee has taken action 
to have the Government Accountability Office (GAO) review and 
evaluate the body armor first article test. The GAO has this 
under way.
    The IG has also made recommendations regarding 
standardizing body armor, which I hope that you will address, 
and we expect to receive an update on these provisions.
    We are told, finally, that there is not a single fatality 
in Iraq or Afghanistan due to the failure of the currently 
fielded body armor plate to defeat the small arm threats it was 
designed to stop.
    I want to repeat that. We are told there is not a single 
fatality at this point in either of those two immediate fields 
of military endeavor. Our goal must be to maintain that record 
and to provide our military personnel with the best body armor 
and force protection equipment available. That is the duty and 
obligation of this subcommittee, first and foremost, to the 
committee as a whole, and to the Congress and the people of 
this country.
    So troops and their families must have continued confidence 
in the body armor being provided to our personnel. And the 
hearing today is to be the first practical step in seeing that 
task completed.
    Again, I apologize for taking so long to do that. I 
ordinarily don't have such a long opening statement, but the 
issues involved are so volatile, they have such public 
attention being focused on them at the moment--not necessarily 
fully informed--that I felt it was required of me to do that.
    And with that, I am going to turn to Mr. Taylor for any 
remarks that he would like to make at this juncture.
    Mr. Taylor. Mr. Chairman, with your permission, I would 
like to submit a very well written statement for the record.
    The Chairman. Without objection.

     STATEMENT OF HON. GENE TAYLOR, A REPRESENTATIVE FROM 
   MISSISSIPPI, CHAIRMAN, SEAPOWER AND EXPEDITIONARY FORCES 
                          SUBCOMMITTEE

    Mr. Taylor. Mr. Chairman, I want to thank our acquisition 
folks for being here today. I think that the purpose of this is 
not just to educate a couple of Congressmen, but to let the 
moms and dads and loved ones of the people in uniform know what 
the military is doing and what this Congress is doing to 
minimize American casualties as we pursue the wars in Iraq and 
Afghanistan.
    I think everyone on this committee was very frustrated with 
the attitude taken under the previous Secretary of Defense 
(SECDEF). That attitude, summed up in my line, was that 
casualties were acceptable, and that we were so busy worrying 
about the next war that we were not responding quickly enough 
to the war we were fighting; and hence, the foot-dragging that 
took place, first on body armor, on getting a jammer on every 
vehicle, on up-armoring High Mobility Multi-Purpose Wheeled 
Vehicles (HMMWVs). It should not have been up to the individual 
trooper to go to a junk yard in Iraq in order to up-armor his 
HMMWV. We, as a Nation, should have been taking the steps.
    Although I don't see him in the audience, I want to thank 
again publicly Colonel Jim Littig, United States Army (USA), 
Retired, for being the first person to actually come up to me 
and say there is a better way to protect a vehicle from an 
underbody explosion, it is called a mine-resistant, ambush-
protected, V-bottom vehicle. The South Africans figured it out, 
the Israelis figured it out, the Japanese figured it out. It is 
regrettable that it took the United States Army as long as it 
did to figure it out.
    I also want to remind people that these hearings have a 
purpose. Two years ago right now, the United States of America 
had less than 500 mine-resistant vehicles. Right now, we have 
over 13,000 in theater. I want to commend General Brogan of the 
United States Marine Corps for the outstanding job he has done 
in, first, developing that vehicle, fielding that vehicle when 
needed, flying those vehicles to theater, and finally, 
producing enough vehicles to where we can send them shiploads 
out of town to theater.
    General, I wanted to let you know that in December I met a 
Lieutenant General Helmick, who tells me that the vehicle he 
was in was attacked by an 800-pound vehicle-borne IED, and he 
lived to tell me about this, walked away from that explosion.
    I want to let you know that the Mississippi Guard unit I 
visited in December, every route clearance mission they run is 
in ambush-protected vehicles, mine-resistant vehicles. I met 
another colonel who will not let his troops leave the wire 
unless they are in mine-resistant vehicles. Your work is saving 
lives every day.
    It took longer than any of us would want to; none of us 
like the idea of going to five suppliers, using three different 
engines and all the other different parts that you had to do in 
order to get them fielded in a hurry. But I want to commend you 
and all of your team for the work that you did. You are saving 
lives every day.
    The purpose for hearings like this is to identify other 
needs, and on the part of Congress to fund and on the part of 
your acquisition boards to build the things that we need to 
save the lives of troops. We also need to know, in the case of 
MRAPs, what sort of logistical problems we have created, as we 
have--I mentioned three different engines, approximately 30 
different varieties of vehicles. What do we as a Congress need 
to do to help you simplify that process and make sure that the 
troops are getting what they need?
    Lastly, General, I would hope we could touch on it, for the 
many years I have been fortunate enough to serve on this 
committee we have heard the Army, in particular, say, ``We 
train as we fight.'' We know in the case of MRAPs you did the 
right thing in fielding those MRAPs as they came off the 
production line, getting them to theater as soon as they came 
off the line--in many instances, flying them there, later on, 
sending them there by ship. I would hope that as that need is 
filled in theater, that there is a plan in place to get those 
vehicles to our training installations so that the first time 
our troops see an MRAP is not in theater, but at that training 
installation, and that they have adequate time to train on them 
before they get to theater.
    For whatever reason, I do read the casualty reports. And 
every time I see a noncombat-related injury listed in those 
casualty reports, I have got to wonder, was it an MRAP rollover 
by someone who wasn't properly trained to operate that vehicle 
in a tough environment, and is someone dying needlessly because 
we haven't gotten the vehicles to the training installations? 
So I would very much like to hear from you what is being done 
to get them to the training installations in a timely manner.
    And again, I want to commend all of you for the job you 
have done. And I hope I told General Helmick your name in 
particular, General. If I didn't, I hope he will get a copy of 
this transcript and know that your work resulted in the saving 
of his life and the lives of lots of sailors, soldiers, airmen 
and marines on a daily basis in Iraq and Afghanistan. And I 
want to thank you publicly for the work you have done.
    [The prepared statement of Mr. Taylor can be found in the 
Appendix on page 45.]
    Mr. Abercrombie. Thank you. As I indicated, we are 
nonpartisan in this subcommittee and in the committee as a 
whole. Gene and I have the pleasure, the honor and the delight 
of having two close friends and colleagues serving now as 
ranking members as we served as ranking members previously, in 
Mr. Bartlett and Mr. Akin. And I will go to them now for their 
remarks, Mr. Bartlett first, followed by Mr. Akin.

  STATEMENT OF HON. ROSCOE G. BARTLETT, A REPRESENTATIVE FROM 
   MARYLAND, RANKING MEMBER, AIR AND LAND FORCES SUBCOMMITTEE

    Mr. Bartlett. Thank you, Mr. Chairman.
    Mr. Chairman, I want to thank our panel for being with us. 
We are very fortunate to have each of you serving our country. 
And we are very pleased to have you with us here today.
    Force protection has always been a top priority to both of 
these subcommittees--and I serve on both--and I have no doubt 
it will continue to be. We in Congress recognize that it is our 
constitutional duty to properly outfit our brave men and women 
who choose to serve their country in the military. Many of 
these brave troops are currently overseas serving in Iraq and 
Afghanistan and all over the world.
    As the threat to our military personnel continues to 
evolve, force protection requirements must continue to change 
accordingly. We as a committee need to be reassured that all 
force protection programs are being accomplished expeditiously, 
the services are communicating with one another, and that every 
effort is being considered to meet new force protection 
requirements. Every day we must be able to confidently say that 
we are doing everything possible to provide our warfighters the 
protection they need and deserve.
    It is along these lines--and I know the Chairman already 
hit upon this in his opening statement--but I am troubled with 
recent press reports in regards to the Army pulling body armor 
from the field based on faulty testing. These press reports are 
based on a recent Department of Defense Inspector General 
report.
    Many of you may be aware that although I did not serve in 
the military, I worked for more than 20 years as a scientist 
and engineer on military projects to improve or invent 
equipment to protect the lives of military personnel. I mention 
this because I understand the importance of testing to 
guarantee that equipment performs to specifications and 
expectations. I believe a fundamental foundation for those who 
do serve is confidence in their government, confidence in their 
civilian and military leadership, and confidence in their 
equipment.
    We are very fortunate to have some new members who have 
recently served in the military and, Mr. Chairman, I think it 
would be very beneficial for us to hear from them in regards to 
how soldiers and marines react when they read these types of 
articles that question the capabilities of their equipment.
    Finally, Mr. Chairman, I am puzzled as to why the 
Department of Defense leadership has not yet weighed in on this 
issue. We certainly know where the Department stands on MRAPs 
and ISR, and rightly so. It seems to me that if the enemy gets 
through the ISR and gets through MRAPs, body armor is the 
ultimate last line of defense for the individual soldier and 
marine. We have the Department of the Army, the Director of 
Operational Test and Evaluation, and the DOD IG, all DOD 
agencies and all with differing conclusions. I hope that this 
hearing will shed some light on this issue. And depending on 
what we learn today, Mr. Chairman, I may suggest that we work 
together to send some kind of official correspondence to DOD 
leadership expressing our concerns.
    I look forward to hearing from our witnesses today. And I 
want to thank you again for your service to our country and for 
appearing before us this afternoon.
    Mr. Abercrombie. And last, but certainly not least, our 
good friend, Todd Akin.

STATEMENT OF HON. W. TODD AKIN, A REPRESENTATIVE FROM MISSOURI, 
 RANKING MEMBER, SEAPOWER AND EXPEDITIONARY FORCES SUBCOMMITTEE

    Mr. Akin. Thank you, Mr. Chairman. And also, thank you very 
much to our distinguished panel.
    Like some of my colleagues, I have some great comments that 
were prepared, and I would ask that they be made part of the 
record.
    Mr. Abercrombie. Without objection.
    Mr. Akin. Thank you, Mr. Chairman.
    The one thing that I might add, and I don't know that this 
is specifically any of your specific responsibilities, but as 
we were dealing in Anbar Province with the problem of MRAPs and 
having those fully armored vehicles there, what happened that 
was kind of interesting was that our number of fully protected 
MRAPs, we had met that in Iraq. But the problem was that the 
distribution was improper, and so we had a lot of people riding 
around where there was no action going on in fully protected 
vehicles, and yet our marines in Anbar Province did not have 
enough of those vehicles. Fortunately, we did a quick 
adjustment and made sure that the distribution followed where 
the attacks were most significant.
    So as we start looking at Afghanistan, trying to wrap up 
the number of the smaller, I guess the 2,000 additional MRAPs 
that are narrower and a little bit lighter for that road 
system, that we could also be careful that those are 
distributed at the most strategic places as they are delivered.
    I don't mean MRAPs, I meant the up-armored Humvees. We had 
trouble with the up-armored Humvees going to the wrong places. 
The same thing could happen with the MRAPS. I am just 
encouraging that we don't make that same mistake again.
    And that is all I had.
    Mr. Abercrombie. We will go right away to General Lennox. 
Should there be a call for us to vote, we will return as 
quickly as possible from that.
    And in relation to the policy of my subcommittee, because I 
happen to be in the Chair now, we are going to start with the 
most junior members. The newest members will start the 
questioning and we will work our way up to the senior members. 
And then the next hearing we have we will reverse that and 
start with the senior members back down.
    So when the testimony is over--and by the way, you can 
summarize if you would, because I do expect we are going to 
have to vote fairly quickly--we will start with the newest 
members and work our way up.
    General Lennox, please.

STATEMENT OF MAJ. GEN. ROBERT LENNOX, ASSISTANT DEPUTY CHIEF OF 
  STAFF, G-3/5/7, ACCOMPANIED BY BRIG. GEN. PETER N. FULLER, 
PROGRAM EXECUTIVE OFFICER SOLDIER, AND KEVIN M. FAHEY, PROGRAM 
   EXECUTIVE OFFICER, COMBAT SUPPORT & COMBAT SERVICE SUPPORT

    General Lennox. Chairman Abercrombie, Chairman Taylor, 
Congressman Bartlett, Congressman Akin, and distinguished 
members of the committees, on behalf of the Army, thank you for 
this opportunity to appear before you today to discuss the Army 
force protection programs.
    I would like to start by introducing the fellow panel 
members and the soldiers that have come with me today.
    First, Brigadier General Pete Fuller, next to me, is the 
Program Executive Officer (PEO) Soldier and the Commanding 
General for Natick, Soldier Support Systems. So, body armor, 
the fire-resistant gear, all those kinds of things, General 
Fuller is in charge of.
    Mr. Kevin Fahey next to him is a Program Executive Officer, 
Combat Support and Combat Service Support, and he is in charge 
of armoring the vehicles, mine-resistant, ambush-protected 
vehicles and things like that.
    Behind me is Brigadier General Tom Cole, and he is the 
Program Executive Officer for Intelligence, Electronic Warfare 
and Sensors. So the sensor platforms that are protecting our 
combat outposts, forward operating bases and things like that 
are delivered by Brigadier General Cole.
    To my right is First Sergeant Patrick Schrader. First 
Sergeant Patrick Schrader is a combat veteran of OIF (Operation 
Iraqi Freedom). He has been awarded the Bronze Star medal with 
a ``V'' device for valor for his conduct during OIF.
    Next to him is Staff Sergeant Fred Rowe. He is a veteran of 
multiple tours in Operation Iraqi Freedom. In fact, he is a 
survivor of several improvised explosive device attacks. And 
Staff Sergeant Rowe has an amazing personal story that helps 
validate the effectiveness of the body armor that we provide 
our soldiers. And I hope he gets an opportunity to share that 
with you, Mr. Chairman.
    Today, we are honored to be accompanied by Brigadier 
General Mike Brogan of the United States Marine Corps, with 
whom we work closely on the Army-Marine Corps Board, and we 
help synchronize together the requirements and our efforts to 
the greatest degree possible.
    Mr. Chairman, we are going to discuss a lot of facts and 
figures today, but our overriding concern is the welfare of our 
soldiers. Today's Army general officers have 107 daughters and 
sons that serve in the Army. The Army is really a family 
business. And I don't mean to tell you that to be self-serving, 
but I need to convey the idea that when we think about soldier 
protection, we think about it like our sons and daughters. And 
we are inculcated with that idea from the first moment that we 
serve as leaders when you stand at the end of the chow line and 
make sure that your soldiers are taken care of first. Soldier 
protection, force protection are those kind of concerns for the 
leadership of the United States Army.
    As I was preparing to come speak with you today, I 
contacted leaders in both Iraq and Afghanistan and I asked for 
updates on what is going on in the areas of force protection in 
their theaters so I could share with you all today. And what I 
was struck with, really, was the effort in both theaters, but a 
story that was told to me by leaders in Iraq about how they are 
laser-like focused on defeating the improvised explosive device 
threat there and their passion for solving this tough issue; 
and how that number one threat to our soldiers in Iraq starts 
with the individual protection gear, the body armor that a 
soldier wears. It then goes to the vehicle that they ride in, 
the armor that we have added to the side of the vehicle, the 
MRAPs, the mine-resistant, ambush-protected vehicles with a V-
shaped hull. And then it goes to the technology that we 
provided to them, with both active and passive countermeasures 
to help either detonate the IED before they get there or to 
defeat the explosion in general.
    And then it goes to the use of manned and unmanned aerial 
platforms that provide sensors to help find the devices as they 
are placed, to track the networks down to find out who is doing 
those kind of things. It goes to the route clearance teams that 
Chairman Taylor talked about that are out there on the roads 
2,500 miles a day, running the routes, making sure they are 
clear. And it goes to putting all those bits and pieces of 
intelligence that they grab together to form a picture to help 
roll up the threats of these bomb makers before they are 
allowed to hurt and damage our soldiers.
    Even this total commitment, this passion that comes through 
in their discussions with me, is not sufficient, and they know 
this. We are making progress. We are finding 40 to 50 percent 
of these devices and either detonating them in advance or 
exploiting them for information.
    I wanted to share that with you today because I know that 
this committee shares the same passion for protecting our 
soldiers. We care, and we know that you do, too.
    For this same reason, there may be some information I am 
reluctant or hesitant to share in an open hearing with you 
today. If that is the case, I want to make sure that we follow 
up quickly in a closed setting or a classified setting to 
address the concerns that you raise without endangering our 
soldiers that are deployed.
    Mr. Abercrombie. It may be that the briefing we had will 
have covered that. If it doesn't, we will take it up. So when 
that comes up, just say so and we will move on.
    General Lennox. Thank you, Mr. Chairman. I appreciate that.
    The progress I have talked about wouldn't be possible 
without the help and cooperation of the committee members here, 
your support for our investment in training and equipment, 
facilities and services.
    Mr. Chairman, I have submitted a written statement that I 
ask be made part of the official record.
    Mr. Abercrombie. Without objection.
    General Lennox. It has a lot of those facts and figures. 
The main point that I want to make today, and the one that 
often gets lost in the middle of those facts, is that we do 
care. The leadership of the Army is committed to protecting our 
soldiers.
    With that, sir, we stand ready to answer your questions.
    [The prepared statement of General Lennox can be found in 
the Appendix on page 50.]
    Mr. Abercrombie. So General Fuller and Mr. Fahey, you are 
prepared to answer questions and comment on observations?
    General Fuller. Yes, sir, I am.
    Mr. Fahey. Yes, sir.
    Mr. Abercrombie. General Brogan, would you like to make a 
statement at this point?

 STATEMENT OF BRIG. GEN. MICHAEL M. BROGAN, COMMANDER, MARINE 
 CORPS SYSTEMS COMMAND, PROGRAM EXECUTIVE OFFICER, MRAP JOINT 
                         PROGRAM OFFICE

    General Brogan. If I may, sir.
    Chairman Abercrombie, Chairman Taylor, Mr. Bartlett, Mr. 
Akin, distinguished members of the subcommittees, thank you for 
the opportunity to appear before you today, and thank you for 
your continued support of our men and women who wear the cloth 
of our Nation.
    The theme that I would like to provide for you today is one 
of iteration and evolution. Our personal protection equipment 
has evolved significantly throughout this current conflict. 
From the flak vest that we were all used to wearing prior to 9/
11 to the outer tactical vest, the modular tactical vest, and 
looking forward to future improvements in that vest.
    But beyond just the ability to stop shrapnel and limited 
small arms fire, we included the small arms protective inserts 
(ESAPI), the first time that we had ever fielded bullet-proof 
equipment to our soldiers, sailors, airmen and marines. And 
then, as the conflict progressed, we moved on to the enhanced 
small arm protective inserts. We have now fully fielded that 
ESAPI ensemble to the marines, soldiers, sailors and airmen 
engaged in the current conflict.
    Likewise, we began this effort with helmets that used a 
webbed suspension system. We have now fully fielded the pad 
suspension system to all of our troops.
    We entered the conflict with canvas High Mobility 
Multipurpose Wheeled Vehicles, the HMMWVs, through two 
generations of Marine Armor Kits, and then to the M-1114, and 
finally today, the expanded capacity, up-armored HMMWV 
vehicles; and as you both discussed in your opening statements, 
the Mine Resistant Ambush Protected program. We have now taken 
delivery of more than 15,000 of these vehicles by the U.S. 
Government. We have over 13,000 in theater, and today, over 
11,600 are in the hands of our warfighters.
    Likewise, we armored our line-haul logistics vehicles, the 
Medium Tactical Vehicle Replacement truck and the Logistics 
Vehicle System.
    We also made significant improvements in the fire-resistant 
clothing we issue to our marines. Through the fire-resistant 
organizational gear ensemble, we went from what was 
historically given to our aviators in flight suits, our combat 
vehicle crewmen, with a combat vehicle crewman suit, to now 
issuing to every single individual who leaves a forward 
operating base a combat suit that has fire-resistant 
properties. And as we look forward to migrating to Afghanistan, 
we are including in our cold weather ensemble those same fire-
resistant properties.
    But this has been, as General Lennox indicated, more than 
just that last line of defense, with vehicle armor, body armor, 
and flame resistance; it is that holistic way that we look at 
defeating IEDs through intelligence, surveillance and 
reconnaissance assets, some of which he described. Through mine 
rollers, through jamming equipment, through a number of 
different means we look to protect our troops. We believe that 
today we have the best equipped, best protected force this 
Nation has ever fielded, and we continue to make improvements 
to that equipment.
    We look forward your questions.
    Mr. Abercrombie. Thank you very much, General.
    [The prepared statement of General Brogan can be found in 
the Appendix on page 62.]
    Mr. Abercrombie. Mr. Sayre, could you identify yourself 
just for purposes of the committee members being able to see 
who you are, should questions or--and Ms. Ugone. There you are. 
Very nice to see you.
    They won't be testifying as such, but will be available; 
and you can chime in when you think it is pertinent or 
appropriate. And I don't take it as anything other than the 
luck of the draw that you are sitting on opposite sides of the 
room.
    Let's see, the first question, then, or commentary is from 
Massachusetts, the winner of the new member lottery is 
Representative Tsongas--I should say, new member to the 
committee.
    Ms. Tsongas. Maybe one of the newest members, but I hate to 
admit I am one of the oldest as well.
    General Lennox, a question for you. And I appreciate very 
much your testimony and the professionalism with which you take 
the concerns we all have for how we care for our soldiers, but 
I do have a question.
    The Army reported 250,000 acute orthopedic injuries in 2007 
that were linked to the stress of bearing heavy loads during 
repeated deployments. According to General Peter Chiarelli, 
Vice Chief of Staff of the Army, there are about 20,000 
nondeployable soldiers equal to about four brigade combat 
teams, which puts an additional stress on the force, that were 
hurt from the sheer weight of the equipment. Now it appears 
that the Army will issue a contract award for a stronger but 
heavier ceramic plate.
    I understand the need to be prepared for contingencies that 
may require the increased protection of this equipment, but 
what are we doing to produce lighter-weight plates at current 
levels that are not only requested by commanders in theater, 
but will also preserve the health of our force and allow us to 
remain at appropriate force levels?
    General Lennox. Yes, ma'am. You hit upon a very, very good 
point.
    It is a real tradeoff between protection of our soldiers, 
providing the requisite amount of body armor, and the impact 
that it is having not only on their wear and tear over time of 
our soldiers and the readiness of our units, but really on 
their effectiveness as they fight day to day.
    Sergeant Rowe can tell you, if permitted at an appropriate 
time, that wearing the body armor today, day in and day out 
over an extended period of time, does take its toll.
    Mr. Abercrombie. General, would you like to bring him up 
now?
    General Lennox. If you don't mind, Mr. Chairman.
    Mr. Abercrombie. Not a bit. Can you do it so we can get the 
microphone so everybody can hear.
    General Lennox. Sergeant Rowe, would you mind just 
explaining about the impact of the body armor.
    Mr. Abercrombie. Before you start, that is indicating that 
we are going to have a vote. I expect it will be more than one. 
If we hear five bells, it means that we will have about 10 
minutes; I will stay here that long, but the members will have 
to leave.
    I expect there will be three votes. So there will be a 15-
minute vote, two 5-minute votes. And it doesn't mean that, 
obviously; it will be longer than that.
    We will have about 10 minutes, Sergeant. I don't think we 
will get to a second question before we have to go.
    Sergeant Rowe. Mr. Chairman, I can tell you from firsthand 
experience----
    Mr. Abercrombie. Thank you for being here, Sergeant. And 
thank you for your service.
    Sergeant Rowe. No problem.
    Over time, the wear and tear on our bodies is----
    Mr. Abercrombie. Did you hear the question from Ms. 
Tsongas?
    Sergeant Rowe. Yes, sir.
    Mr. Abercrombie. Okay.
    Sergeant Rowe. Over time, sir, the body armor, it does wear 
on your body. I can tell you from personal experience in Iraq 
that, you know, with the heat and all the weight, it does wear 
on your body.
    I was there for a year and a half on this deployment, and 
it is rough. But I couldn't imagine doing what I did and 
carrying what I carried in Afghanistan. It would have been 
absolutely impossible to have carried the weight and the 
weapons and the ammunition that I had to carry in Iraq. It 
would have been absolutely impossible to have carried all that 
equipment in Afghanistan.
    General Lennox. Would you mind sharing your experience 
about how you know the body armor does work.
    Sergeant Rowe. Mr. Chairman, we were conducting a patrol, 
and my truck was struck by an IED and was blown up and landed 
on its right side.
    Myself and the rest of the soldiers in the vehicle went 
ahead and exited the vehicle through the turret because 
obviously we couldn't get out of any of the doors and the truck 
was on fire.
    When we came out of the truck, there was an ambush set up 
for Iraqi insurgents, and they began shooting us as we came out 
of the truck one at a time. I took three rounds to the chest at 
a less distance between me and you with the body armor, and all 
three rounds were stopped by the plate. It hurt, but I was 
still mission capable, and I was still able to do my job 
throughout the rest of the day.
    General Lennox. To answer your question, it is just a 
tradeoff between effectiveness and weight.
    General Fuller can probably talk a little bit about what we 
are doing in terms of research and development to develop 
lighter armor that is equally capable. And that is the 
tradeoff, I think, over time: How are we going to be able to 
have lighter capabilities, lighter armor that still allows our 
soldiers to perform and do their mission?
    And we struggle with that, frankly. And we struggle with 
that in some of the decisions.
    If you will allow me, I would prefer to respond to the 
question about the new production in a closed session for some 
of our rationale.
    Ms. Tsongas. One quick question before we hear from General 
Fuller--and I can't see the time to know--but does the 
temptation exist to take the armor off because it is heavy or 
hot or whatever?
    Sergeant Rowe. Yes, ma'am. There is a risk that all 
soldiers are willing to take. And I think that in certain 
situations, mission dependent, that as soldiers we would be 
happy to take off some of the body armor to be more mission 
capable, more mobile on the ground, more flexible, faster. It 
comes to a point where you are more mission incapable of doing 
your job or more at risk or vulnerable with all of the 
equipment on.
    I think it should be left up to the commanders or to the 
independent leaders on the ground to decide what kind of armor 
we need to take out or what we could downgrade. Because there 
are times that I have been on mission where I could have got 
out of the firefight a lot quicker and I could have handled 
business a lot easier if I would have been able to be more 
mobile or do my job more effectively with less weight.
    Ms. Tsongas. Thank you.
    General Brogan. Ma'am, this is an area where we need some 
additional science and technology research conducted. In public 
appearances over the last 18 months, on six separate occasions 
where I have met with leaders of industry and their marketing 
representatives, I have implored them to develop the materials 
that will allow us to go from the hard ceramic plates with the 
Aramid fibers that we currently use to something that may 
involve carbon tube nanotechnology that can significantly 
reduce the weight.
    Currently, that technology does not exist. There is limited 
work being done in government laboratories that the Office of 
Naval Research, some sponsored by Defense Advanced Research 
Projects Agency (DARPA), but today we do not have that 
technological breakthrough. We need to significantly lighten 
the load.
    Mr. Abercrombie. General Fuller, did you want to comment?
    General Fuller. Yes, Mr. Chairman.
    Ma'am, an interesting point is, you also have to recognize 
that Sergeant Rowe didn't tell us what he was doing at the 
time. He was a sniper. And we now are looking at a solder as a 
system. We just can't focus on giving him body armor 
independently, giving him a weapon independently, giving him 
all the other gear that they would carry. Now we are looking at 
it as how do we provide soldier as a system and recognize you 
might save five pounds in one area, but add it back in another 
area that you didn't intend to because you are not managing it 
as a system.
    Mr. Abercrombie. So in other words, when you are dealing 
with, as the sergeant indicated in Afghanistan, or dealing with 
a different kind of terrain, a different kind of situation may 
call for a different set of body armor, which may not be the 
same kind of protection you would have under other 
circumstances. But as he mentioned, the mobility question is 
more important than the stopping power, necessarily, of the 
armor.
    I am not trying to simplify it, but I am just trying to 
give a for-instance.
    General Fuller. Yes, Mr. Chairman, I think that is an 
accurate assessment. I think what we are trying to do is 
provide the commander in the field that flexibility. We want to 
make sure that they stop the rounds that come at them, but how 
they carry that plate might provide a different weight factor 
and different weight consideration.
    Mr. Abercrombie. I think we will leave it at that, because 
if we go further, we are dealing where we need to get into a 
classified situation.
    Let's try one more and we can get started.
    Congressman Wittman, followed by Congressman Massa. 
Congressman Wittman, maybe we can get started and we will take 
it from there.
    Mr. Wittman. I will get started by directing a question to 
General Lennox.
    I had the opportunity to go to Iraq and Afghanistan here 
recently, and I heard a number of complaints when I was there 
about stoppages and malfunctions with the M9 pistol and the M4 
rifle. And with respect to the M9, I have been told that the 
9mm doesn't have the stopping power that some of the larger 
calibers do like the .40 and .45 caliber pistols. And what I 
have learned in the meantime is that there is a 2006 study out 
by the Center for Naval Analysis which polled soldiers who use 
these weapons in combat and found that 48 percent of the 
respondents were dissatisfied with the M9 Barretta, and 26 
percent requested a larger caliber rifle.
    Given these issues and the fact that there have been 
numerous advances and improvements made in pistols since the M9 
was fielded in the mid-1980's, can you tell us a little bit 
about what the Army is doing to address those concerns? And is 
the Army working to generate a new pistol requirement?
    Are we doing things to increase the competition for those 
small arms? And if so, when do you anticipate that this 
requirement would be released?
    General Lennox. I am not aware of the stoppages and the 
trouble that you've identified, and we will definitely look at 
that. And if you don't mind if I take that for the record, I 
will go and investigate and get you feedback on that, in 
particular.
    [The information referred to can be found in the Appendix 
on page 78.]
    General Lennox. We do have an open competition for a new 
carbine. The Secretary of the Army has made sure that we were 
doing an open and competitive competition, looking at all 
comers to see if we can provide something with the right 
capability for our soldiers, using the latest technology and 
weighing things like maintenance and effectiveness and looking 
at it, as General Fuller said, in terms of soldier as a 
system--the weapons part of it, the optics are part of it, the 
soldier's training is part of it, and it all comes together to 
deliver an effective soldier in the field.
    I believe there may be some work being done on a pistol, 
but I can't tell you that for certain, sir.
    General Fuller. Sir, I am also responsible for the weapons, 
and I am not aware of a new pistol competition, though we are 
constantly looking at improvements and looking at other 
calibers, but we have not initiated an action to get a new 
pistol.
    We are looking at constant improvements. As you articulated 
on the M4, we aren't just waiting for the new carbine 
competition to come forward. We have been doing industry days, 
we have been asking industry, what can we do to our current 
systems to give it better capability, make constant 
improvements, not just waiting for our future technology or 
future capability, but constant improvements. And I believe you 
will see, as General Lennox articulated, it is more than just 
the actual weapon; it is the training, it is the ammunition, it 
is the optics, and it is the soldier.
    Body armor actually has an impact on the soldier when you 
are talking about the rifle, ensuring that they can get their 
butt stock into their shoulder to get a good firing position. 
We actually gave a little pad for left- and right-hand shooters 
to ensure they can get that rifle into the correct position and 
hold it there to get a steady bead.
    We are constantly looking at everything we can. And as 
General Lennox said, a soldier as a system, let's just not look 
at the pistol, the rifle; let's look at what does that soldier 
need to be able to do in their mission? How does it interface 
with their body armor? Where would they carry their pistol? 
Where do they carry the ammunition, et cetera?
    Mr. Wittman. Let's go back real quickly to the Center for 
Naval Analysis. They did conduct a survey on small arms fire in 
2006, and let me speak specifically about the M9.
    The study found that 38 percent of soldiers who experienced 
a stoppage with the M9 reported an inability to engage the 
enemy with the weapon even after performing immediate action to 
clear the stoppage during a significant portion or throughout 
the entire firefight. So I think there is some concern there 
with the M9.
    Special Operations Command (SOCOM), I know, as you say, is 
looking to replace the M4 rifles with a new weapon. Given the 
level of dissatisfaction with the small arms and the issues 
that our solders are having to deal with found by the Center 
for Naval Analysis, can you tell us why the Army hasn't been 
able to generate a new requirement for a pistol or a rifle, and 
some of the directions we need to take to address that?
    Mr. Abercrombie. Can you answer that in about 30 seconds? I 
doubt it. Do you think we should come back to that?
    General Lennox. I think I can be very quick, Mr. Chairman. 
This is the first I have really heard of the level of 
dissatisfaction, sir, that you are aware of. And I think not 
having heard that, we have not seen that kind of a problem with 
an M9 before or heard about it. It is something we will 
definitely look into and see if there is that kind of 
dissatisfaction.
    Mr. Abercrombie. Are you familiar with the report or the 
article that the Representative is referring to?
    General Lennox. No, sir, I am not.
    Mr. Abercrombie. Okay. Maybe we can take a look at it. Why 
don't you take a look at it and get back to us and to him with 
some--perhaps you can do a book review of it. How does that 
sound?
    General Lennox. That is great, sir.
    Mr. Abercrombie. With that, we will recess and return as 
soon as we can, but I expect it is going to be closer to a half 
an hour than 20 minutes.
    [The information referred to can be found in the Appendix 
on page 78.]
    Mr. Abercrombie. Thank you for your patience. We almost 
made it. Let us see. We finished with Representative Wittman. I 
don't know if Representative Massa--let us give him another 10 
seconds.
    Who will be next, then, after Eric? It will be Mr. Sestak.
    Mr. Sestak. I am Navy also.
    Mr. Abercrombie. I beg your pardon?
    Mr. Sestak. Massa is Navy also, so I will take his place.
    Thanks, Mr. Chairman.
    I wanted to ask a question. It came up already with the 
Representative from Massachusetts, and the chairman mentioned 
it to some degree. This morning we had a briefing, classified, 
in Pakistan and Afghanistan. And I have been quite taken by the 
difference between the two ventures, as I think the sergeant 
pointed out. And to my mind is why Congress has done immense 
goodness, under the two gentlemen behind me particularly, but 
to some degree I am almost concerned that we can become risk-
averse, particularly as we head into Afghanistan. Because force 
protection, you would know better than I would, is not really 
just solely or even maybe primarily a materiel solution. So my 
question is to you, and I would be curious is, how does 
training, tactics, techniques, intelligence, mobility, and I 
don't mean mobility with a lighter vehicle only, tie into this? 
Have you seen, you know, I mean, because I think Afghanistan is 
so different, that the lessons there that maybe were pending a 
little bit too much down the road here thinking about armor 
rather than the holistic approach that maybe it is kind of hard 
to transition out of that after you have had such a focus from 
Congress on it?
    Do you have comments upon that?
    General Lennox. Sir, if you don't mind, I will start. I 
think your point is spot on, that there is enormous 
environmental differences--Chairman Abercrombie talked about it 
earlier--between the two different theaters. One size does not 
fit all. I was assigned in Colorado Springs a couple years ago, 
and that was about a mile high. And for the soldiers there, you 
take that mile high and now you add another 4,000 feet on top 
of it. And now you add combat loads on top of that it. And it 
is got a tremendously debilitating effect in terms of your 
ability to maneuver.
    We are taking some initiatives at their request, at the 
theater's request. We are trying things like the Special Forces 
tactical vest and armoring system in small numbers because it 
is about 7 pounds lighter just to see if that works and try to 
get some feedback and learn from that. We are trying a lighter 
machine gun, four or five pounds lighter in small numbers 
trying it to see if that helps us.
    You heard the earlier discussion perhaps about the mine-
resistant ambush-protected all-terrain vehicles. One of the 
constant themes that has come from Afghanistan is the desire 
for vehicles that are lighter, capable of going off road, a 
smaller turn radius, capable of keeping up with some of the 
pick-up trucks they may be chasing and things like that, giving 
you a little bit more capability. And not in all cases have we 
given people MRAPs, for example. The Third Brigade 10th 
Mountain Division was outfitted with armored security vehicles, 
specifically because MRAPs didn't fit their needs. So I think 
you are exactly right that the conditions are different in both 
theaters. You have to be cognizant of that. And we are working 
initiatives----
    Mr. Sestak. General, could you take me one step further. 
How do you begin to measure performance versus protection? For 
instance, there are really no roads along where the insurgents 
tend to cross into Afghanistan. There just aren't. And my 
goodness, I imagine down in Marine Corps Combat Development 
Command (MCCDC), I understand they are looking at an Unmanned 
Aerial Vehicle (UAV) to carry logistics around in Afghanistan, 
because the key here is to stay off any roads that might be 
anywhere. I mean, are we kind of pushing a little bit too much 
on this? Every solution you came back to me here with is 
something on the man. Shouldn't we be looking beyond that now 
for performance rather than protection only?
    General Lennox. I don't mean to give the impression that 
everything is on the soldier. Frankly, a lot of this is about 
intelligence, surveillance, and reconnaissance capabilities 
that empower the soldiers. In terms of the increase manned and 
unmanned vehicles that are going into theater, that provides 
situational awareness, can direct you and save labor. Some of 
the things that we are putting around the bases to provide 
situational awareness, the camera systems that work both day 
and night and allow you to see the enemy at farther distances. 
So some technological advances are not just in armoring but are 
in intelligence, surveillance, reconnaissance, I think that 
help get at some of those problems.
    General Fuller, do you have any thoughts about that, or 
General Brogan?
    Mr. Sestak. I throw this out because this will be my last 
one comment and close. As you answer, I guess my issue is, Iraq 
you know you place people in a place and you basically secured 
it and held it and enhanced it, and we had to get logistics 
back and forth. I think the concept is so different in 
Afghanistan, and that is why I am just curious.
    Thank you.
    Go ahead, General.
    General Brogan. Sir, in addition to the things like General 
Lennox mentioned, when you met recently with Lieutenant General 
Flynn, he may have described for you the Combat Hunter 
initiative that we have going on, instilling that offensive 
mind-set into each and every marine, not just the riflemen, 
giving them the skills to help find enemy combatants in the 
shadows, behind windows where they would normally be out of 
view, those type of things, so that we can take the first shot 
and not be forced to rely just on our body armor when we detect 
an ambush because they have initiated it with a firing action.
    You mentioned the cargo UAV. Anything that we can do to get 
our troops off of the roads certainly limits the opportunity of 
the threat to target us with the improvised explosive devices.
    And then, in the training base, you know we have a pretty 
well established Mojave Viper, Desert Talon events that go on 
at 29 Palms and Marine Corps Air Station Yuma that have proved 
their worth in Iraq. We have a similar effort to focus on the 
unique aspects of the theater in Afghanistan, specifically so 
that we are not relying just on personal protection equipment 
to be the end of the story.
    Mr. Sestak. Thank you.
    Mr. Abercrombie. Is that sufficient, Representative Sestak?
    Mr. Sestak. Yes.
    Mr. Abercrombie. Thank you.
    Mr. Coffman is next.
    Mr. Coffman. Thank you, Mr. Chairman.
    And gentlemen, thank you so much for appearing before this 
committee. I think my question is, if we look across the 
spectrum of the force protection initiatives that you have been 
discussing, whether it is a protective vest or Hesco barriers 
or it is MRAPs, are there any--obviously the Congress of the 
United States is looking at spending some money to get this 
economy moving, and we are trying to parallel our spending with 
the Nation's needs and with things that have a multiplier 
effect on this economy. Are there any deficits in the area of 
force protection that if the requisite funding were available 
could accelerate procurement so that our troops in Iraq and 
Afghanistan have the most up-to-date equipment possible?
    General Lennox. Thank you, sir.
    We do have some differences between capabilities in Iraq 
and Afghanistan today. We do have funded things like route 
clearance vehicles that are en route to Afghanistan that are 
not yet the same as Iraq. Some of the unmanned aerial vehicles 
and things like that we do have funded, but they are not yet 
there. So there is a difference still in the theater 
capabilities that we are working to address. And should the 
President decide to switch emphasis or--and the Secretary of 
Defense--decide to switch emphasis into Afghanistan, there are 
some things that we have been doing to lean forward in terms of 
armoring vehicles and preparation for that. But there will 
likely be requirements for additional supplemental funding 
addressing some of those kinds of concerns in the event that 
policy decision is made.
    General Brogan. Sir, I would submit that the work of the 
legislature has fully funded all of our personal protection 
needs as well as the armoring needs for vehicles. So, 
unfortunately, there is not any of those quick wins that we can 
get that would fall in the realm of economic stimulus with 
respect to personal protective equipment.
    Mr. Coffman. Thank you.
    One follow-up question, Mr. Chairman.
    And that is, with the MRAP, are there some issues given the 
nature of the terrain in Afghanistan that create a safety 
hazard given the weight of those vehicles?
    General Lennox. Sir, I think the right answer is, they are 
challenged. There have been accidents. There was an accident 
today with an MRAP in Afghanistan. The vehicle's rear wheels 
got caught, and the vehicle turned over. Thankfully nobody was 
injured.
    I think the terrain is extraordinarily demanding there, and 
it is a challenge each and every day to operate in those 
vehicles. We have received requests for the lighter version, 
and hence the request for the mine-resistant ambush-protected 
all-terrain vehicle. Nevertheless, it is state-of-the-art and 
it is saving lives in both theaters today. I don't know if I 
answered your question adequately or if there is additional 
comments.
    Mr. Coffman. Is training a function of some of these--a 
lack of training, since some of these soldiers and marines, as 
I understand it, don't see these vehicles until they are in 
theater?
    General Lennox. I think that is a good question, sir.
    There is training that goes on in theater before a soldier, 
marine, is allowed to operate the vehicle. It is not optimal.
    We would clearly like to do training, as Chairman Taylor 
mentioned earlier, before the soldiers deploy back here. We 
would like to take our time. We want to make sure that it is 
right. But before they operate the vehicle, there is training 
in theater.
    And some of it is certainly an impact of the theater 
itself. Roads give way, precipitous turns. And those things 
have an impact as well.
    General Brogan. If I may, sir, we have analyzed all of the 
vehicle incidents that resulted in rollover. Roughly--and that 
is about 94 vehicle accidents that resulted in rollover. Two-
thirds of those are directly related to the weight of the 
platform. The road bed crushed underneath it, and the vehicle 
fell over onto its side or slid down into a canal. The next 
largest category has to do with maneuvering; a sharp turn, 
avoiding an accident, avoiding a pot hole, avoiding what they 
perceive to be an improvised explosive device. So those, I 
believe, can be impacted by training. Today we have simulators.
    In fact, one is now at Camp Shelby, Mississippi. We also 
have in the Marine Corps, the Navy, the Air Force, and Special 
Operations Command, a significant number of vehicles in the 
training base. And there is an Army plan to cascade vehicles as 
we put the newest, most capable vehicles into theater to bring 
the ones that they are replacing out and put those at home 
station to be used for training by the forces here in the 
continental United States.
    Mr. Abercrombie. General Brogan, could you comment further 
in relation to that question in the context of the question 
about the idea then of the so-called lighter, I don't know, 
smaller, faster, you know, the welter-weight version of the 
light or heavy weight or heavy-weight versions with regard to 
whether or not that takes you into what General Fuller was 
talking about and what some of the questions previously related 
to with regard to function and purpose altering. In other 
words, you have heavy armor, that is one thing, but you lose 
mobility. Now, if we are talking about a lighter, faster, et 
cetera, MRAP, are we also talking about a difference then in 
what you can expect in terms of vulnerability?
    General Brogan. I won't go too far into the vulnerability 
area, sir, in open session. But what I will offer is that the 
MRAP all-terrain vehicle was specifically requested by the 
Commander of Joint Task Force 101, those folks operating in 
Afghanistan. The attributes that they described in their desire 
for that platform indicate that they want MRAP-like 
survivability with Humvee like mobility, the tighter turning 
radius, et cetera.
    Mr. Abercrombie. I understand that. So here is where the 
testing question, here is where the research and development 
question has to be concentrated on. And we need to move in that 
direction.
    In other words, I am not saying it can be done or not be 
done. But if it is going to be done, that means we have to 
concentrate funding and emphasis on research and development, 
right.
    General Brogan. We believe we have the technology today for 
MRAP All-Terrain Vehicles (ATV), sir. I mean, it may be 
lighter, but it is still 24,000 pounds, which is 10,000 pounds 
more than an up-armored Humvee. So that is still a fairly 
significant, substantial platform. As we discussed previously, 
the three mechanisms that injure people in an improvised 
explosive device event are the blast and over-pressure, 
fragments, and then acceleration. It is that third piece, the 
acceleration, that is more of a concern with a lighter platform 
because the same size explosion will move that lighter vehicle 
much faster.
    Mr. Abercrombie. And that is also a question of training, 
too, isn't it.
    General Brogan. It is, sir.
    Mr. Abercrombie. You are going to need preparation. You 
can't just drop somebody in theater and say, you will pick this 
up real quick I am sure.
    General Brogan. These are large vehicles with air brakes, 
high centers of gravity, so training certainly plays a role.
    Mr. Abercrombie. Thank you.
    Mr. Hunter would be next.
    Mr. Hunter. Thank you, Mr. Chairman.
    Gentlemen, first for Staff Sargent Rowe, I would like to 
get back to what you were talking about, about body armor. You 
are a sniper, right, which means you aren't necessarily walking 
point, and this goes back to your answer that you would not 
wear the same equipment in Afghanistan that you wore in Iraq, 
correct? That was your statement. And then you said you were a 
sniper. I have been to both theaters. I have been to Iraq twice 
and Afghanistan once. I have had shrapnel bounce off my flak 
jacket and never have an actual bullet hit it and break it. But 
you are a sniper, so you have a much different role than the 
guys walking point or the guys just driving roads every day or 
the guys just walking through passing out Meals Ready to Eat 
(MREs) or anything else. So what you are saying is not that the 
usual equipment is bad, but that you would like to have 
different equipment for different scenarios like climbing 
cliffs in Regional Command East (RC-East) in Afghanistan as 
opposed to walking roads in Regional Command South (RC-South) 
correct?
    Mr. Rowe. Yes, sir. I am 11 Bravo; I am just a regular 
infantryman, too. I have done both jobs, and that is why I say 
I think the decision should be left up to be tailored by the 
commanders on the ground to whether, if I was a sniper one day 
and I was out doing a mission, then I might not need all the 
body armor because I will be dragging my equipment behind me.
    Mr. Hunter. Is it not now, though? Is it not up to that 
ground commander?
    Mr. Rowe. No, sir. You know, the body armor and the 
equipment that we wear is tailored for the Army as a policy 
that you will wear all your equipment at all times and that all 
equipment is needed at all times. Whereas, you know, as an 
infantry squad leader, and you are on the ground and you are 
trying to chase down the enemy or you are reacting to contact, 
you need to be lighter; you need to be able to react to that 
contact properly or enter and clear buildings. Whereas, if you 
are just walking down the street as a patrol, you might want 
all that body armor because you are just going to get shot at. 
So, yes, sir, I think it should be tailored to the soldier, his 
job and the situation at hand.
    Mr. Hunter. So, General Lennox, that is more of an Army 
staff level tactical decision. That is not a congressional 
decision or necessarily even a DOD decision. That is your 
decision.
    General Lennox. Yes, sir.
    Mr. Hunter. Right, so that is not up to us whether or not 
have you to wear your body armor. We had Marine snipers that 
would wear outfits like the enemy. They wouldn't wear anything. 
And that was up to that ground commander at that time. So that 
is up to the Army generals.
    General Lennox. And what we are after is actually trying to 
equip them with things that give them equal protection but at a 
lighter weight. And I think that is the common theme that comes 
from theater, sir.
    Mr. Hunter. And my last question here, this is a force 
protection meeting. But the golden hour in Afghanistan, there 
is no golden hour, the much talked about golden hour that we 
developed in Iraq. And that means that if you got somebody back 
within one hour, they had a much higher chance of living as 
opposed to, after that hour, they would bleed out or whatever 
else happened to them. That does not exist in Afghanistan right 
now at all. There is no golden hour. It is like an hour and a 
half, hour and 45 minutes because how spread out everything is. 
And I was wondering if you have been working that, are we going 
to start deploying more forward surgical units? Are we going to 
use the Osprey there? What are we going to do to make that 
golden hour come to Afghanistan?
    General Lennox. The Secretary of Defense and Secretary of 
the Army have been very personally involved and committed to 
getting the same capabilities in both theaters responsiveness 
to a forward surgical team. They are in the process of 
deploying an increased number of assets. I don't want to go 
into details of a request for forces here in the open hearing. 
But they are in the process of deploying additional 
capabilities to meet that objective.
    Mr. Hunter. Is there an actual time line for that.
    General Lennox. Yes, sir.
    Actually, by April, it will be done. We are trying to 
mitigate that by pushing as much earlier as possible. So there 
are steps that are happening now, but by April, it should be 
accomplished.
    Mr. Hunter. In Afghanistan by April?
    General Lennox. Yes.
    Mr. Hunter. Thank you very much.
    I yield the rest of my time.
    Mr. Abercrombie. Could you as a matter of interest to not 
just this committee but to Mr. Skelton, if not resting with you 
personally or within your command area, give us an update, give 
the committee a perspective on that question about the surgical 
units and so on and how that is going to be done and how the 
funding is going to take place, et cetera, how that is being 
accounted for?
    General Lennox. It is really a question of the resources 
that are being reallocated and pushed forward in order to make 
sure, resources that are available now to make sure that the 
capability is the same for a soldier in both theaters.
    Mr. Abercrombie. No, I understand that. But the logistics 
of it are going to be entirely different.
    General Lennox. Absolutely.
    Mr. Abercrombie. I think that is what Mr. Hunter is 
referring to. Am I correct?
    Mr. Hunter. Yes, Mr. Chairman.
    General Lennox. Mr. Chairman, you are right. Some of the 
challenges are things like, in Afghanistan, you may have to use 
a lower--
    Mr. Abercrombie. That is okay. You needn't go into it now. 
But why don't we get a little more direct report about that, 
what is involved in it.
    General Lennox. Absolutely, sir.
    Mr. Abercrombie. Or what is likely to be involved in it, 
because that needs to be made a part of the budget process. I 
don't want to see this stuff start showing up in supplemental 
budgets because that means it is not real in terms of the 
budgeting process of the Pentagon--do you get what I mean--or 
the services. And once you get started down that road in 
Afghanistan like we did in Iraq, we are going to have serious 
problems, budget problems, okay. So it is not entirely on your 
shoulders, but the question is a real one, and it needs to be 
pursued. So if it is not entirely within your purview, if you 
can shift that to somebody who can alert Mr. Skelton about it 
and then send us a copy of it, we would be gratified.
    General Lennox. Yes, sir.
    [The information referred to can be found in the Appendix 
on page 77.]
    Mr. Abercrombie. Mr. Taylor is next and is going to take 
the Chair of the committee for the moment.
    Mr. Taylor. [Presiding.] I want to thank you gentlemen 
again, and we all apologize for keeping you here later than you 
would like to be because of the votes.
    General Brogan, a couple of things that I would like you to 
address. For one, for the newer members, I want to commend 
General Brogan on the huge task you had in developing the MRAP. 
It is a lot more than just a V-shaped bottom. For what it is 
worth, the fuel tanks have to be designed to blow away, 
otherwise you incinerate the occupants; that as a matter of the 
seats, whether you suspend them from the bottom or from the 
ceiling, again, because of the initial shock of the blast 
coming up, limiting the number of port holes where a Rocket 
Propelled Grenade (RPG) or explosive penetrator can enter. So 
it was a, in fairness to the General, it was a huge task. And 
as new threats evolved the need to respond to those threats, 
and, General, again, you and your crew deserve our Nation's 
gratitude and the gratitude of every mom and dad who has got a 
loved one over there.
    One of the things we discussed as you were looking at the 
nine or so different varieties at the testing ground was you 
had come up with a grading system and you had, I don't know, 
maybe 10 different criteria that you were looking at; one of it 
being the hull, another being the fuel tanks, fire suppression, 
et cetera. And I remember you saying that one or two of the 
vendors might do really well on one thing but poorly on nine, 
or it might do well on nine and poorly on one. And I think at 
the time you expressed a frustration that the ideas belonged to 
the vendor, that you couldn't pick and choose different 
characteristics and incorporate them in your ideal vehicle. And 
one of the things I hope I had asked you to do was see to it 
that future contracts were written so that, as our Nation paid 
to have these different varieties of vehicles proposed, if you 
saw something you liked, a feature you liked, that you could 
incorporate it in the final version of the vehicle that you 
ordered, water under the bridge with the first MRAP. And again, 
you did a great job, but as you are looking at the second 
variety, the one that is being designed for Afghanistan, I am 
curious if you have the contractual freedom, if you see a 
characteristic you like in one vehicle, that you could 
incorporate that idea in the final vehicle that you decide to 
make.
    General Brogan. Sir, as you recall in a previous hearing 
where you brought the representatives from industry in here, 
each of them agreed to share the test results on their 
platforms with the other vendors. And that spirit of 
cooperation continues to exist today. I am going to have to 
check and see if we put a specific clause in the contract. As 
you know, we intend with MRAP ATV to down select eventually to 
a single manufacturer. And we will do everything we can to 
ensure that that vehicle is the most survivable, most capable 
platform that we are able to field.
    Mr. Taylor. I am curious, given the unfortunate economic 
downturn, one of the problems that we were facing as you built 
the first batch was a fairly red hot economy and a limited 
number of people who could make the vehicles and wanted to make 
the vehicles, which is why you ended up going to five vendors. 
I am curious, given the economy now, I am glad to hear that you 
can go to one vendor. Once you down select, what do you 
anticipate the time line from the day you place that order, let 
us say the first order is for 2,000 vehicles, which is the 
number being kicked around, from the day you place the order, 
what do you expect the delivery day to be of that 2,000th 
vehicle off the assembly line and headed over to South Carolina 
for integration?
    General Brogan. Sir, as you know, we are now in source 
selection on that. And I have not personally looked at the 
proposals. And even if I did, were I to divulge the most 
aggressive of those time lines, I could be adversely affecting 
the outcome of that solicitation. So I am going to have to take 
that for the record, and after source selection is complete and 
we have awarded the initial five contracts for the more 
exhaustive testing of the platforms, be able to provide you an 
update at that time.
    [The information referred to can be found in the Appendix 
on page 77.]
    Mr. Taylor. I guess my last question, General, would be, it 
is common knowledge in this town that we have paid too much for 
the first of any platform, but the real bargains come at the 
tail end of a production run. That is when the manufacturers 
come and say, hey, I am getting ready to lay people off. It is 
a fact that the price of particularly metals have dropped 
dramatically since you started the MRAP program because of the 
worldwide economic slowdown. I think the price of aluminum is 
the cheapest it has been in about five years. I am sure steel 
is about the same. So, given the fact that the tail end of the 
run you get your best bargain and that we need vehicles at the 
training installations, do you have, number one, the financial 
empowerment and the legal empowerment to buy whatever vehicles 
you deem necessary or the training commander deems necessary to 
get them to Fort Polk, Camp Shelby and the other training 
installations, again in a timely manner? And this is very 
personal. I have got about another 5,000 Mississippi Guardsmen 
have been notified that they will be training up this summer to 
be deployed. I would sure like to be able to tell their 
families that they will train on an MRAP stateside before they 
deploy some time next fall.
    General Brogan. The short answer is, yes, we have all of 
the funding we need to buy all of the vehicles that are 
destined for the training base. All of those vehicles are on 
contract and being produced. But as I indicated, the plan is to 
take the most capable vehicles, which are the ones coming off 
the assembly line now, place them forward into theater and then 
retrograde the vehicles, the early delivery vehicles, back into 
the CONUS training base. So we don't need any additional money 
to buy training vehicles, sir. They are all on contract.
    Mr. Taylor. Again, so what would your time line be to get 
20 or 30 vehicles of each to the stateside training bases?
    General Brogan. Sir, I would defer that to Major General 
Lennox with respect to the Army training.
    General Lennox. Sir, I think we have about 300 scheduled to 
be back in the March time frame. And I don't want to commit to 
an exact date, but it is because we have to take a look at the 
states of those vehicles, make sure they are refit and ready to 
go out for training and we don't put any of those soldiers in 
danger. But I expect the big numbers to start flowing some time 
in this next quarter. And our ultimate goal is about 1,000 
total, so to have enough of every variety at all the different 
post camps in the station.
    We also are very aggressive with the trainers. General 
Brogan mentioned the very first one, by coincidence, did go to 
Camp Shelby. But there are many more that are coming. And not 
just the drivers trainers but also the rollover trainers to try 
to get us to where we are comfortable exiting the vehicles and 
not just doing make-believe drills to get at that training that 
you so aptly put.
    Mr. Taylor. General, if I could, Secretary Gates had what I 
thought was a pretty good quote last week when he said that 
there is nothing magical about putting a date on a calendar, 
but in our world, if you don't do that, you really don't ever 
get there.
    So what I would ask for the record is when you intend to 
have those vehicles at the different training installations, 
understanding the world changes, requirements change, but I 
would like to know at least what your target day is.
    General Lennox. Yes, sir.
    [The information referred to can be found in the Appendix 
on page 77.]
    Mr. Taylor. Thank you very much, sir.
    The Chair now recognizes the gentleman from New York, Mr. 
Massa.
    Mr. Massa. Thank you, Mr. Chairman.
    And, gentlemen, on behalf of the 645,000 men and women I 
represent, thank you and thank you for all that you do.
    Just a quick series of tactical kinds of questions. I had a 
wonderful opportunity to talk with the staff sergeant, who I 
know is representative of so many. And I notice that he is a 
path finder, at least one of--my eyes are failing--but at least 
one of the senior officers at the table is an airborne 
qualified officer. To what extent is the United States Army and 
perhaps the brigadier can also mention, to what extent are the 
armed services looking at personal protective equipment and 
body armor from a weight-saving point of view with respect to 
airborne tactical services? We saw the largest air drop when we 
went into Iraq. We have added an awful lot, as you have said 
here today. And I am wondering if anyone has a weather eye on 
what this personal protective equipment does with respect to 
tactical air drops.
    General, if you would like to lead off, and I would enjoy 
hearing a variety of responses.
    General Fuller. Sir, I am not aware of jumping with--I 
manage the parachutes. We have a new parachute to ensure that 
we get the soldier safely to the ground. But I would have to 
sort out whether we jump with our body armor on. I am not aware 
of that at this time.
    Mr. Massa. So, as far as you know, there has been no 
tactical testing or training with respect to the increases in 
potential weight because of body armor vis-a-vis the kind of 
use of air drop forces?
    General Fuller. No, sir, I am not aware, but I can find 
out.
    Mr. Massa. Obviously, you don't want to drop heavy. You can 
break a leg. But I am just wondering if anyone is looking at 
this as a synergistic issue.
    General Fuller. I am not aware, sir, but we can sort that 
out for you.
    Mr. Massa. Anyone else?
    General.
    General Lennox. I have to take that for the record. We 
recently opened a free-fall school, and I will find out whether 
or not we are jumping with the body armor or not.
    Mr. Massa. I appreciate the looks from the table. I hope it 
is because we brought up something that people aren't thinking 
about and not something that I am completely off the wall in 
asking.
    General Brogan. I think it is more a lack of knowledge of 
the details than it is inappropriate----
    Mr. Massa. Perhaps in a detachable kit, in a stringer, so 
the weight doesn't impact on the individual air drop element. 
Again, if I had the honor of doing what you do, I can't imagine 
dropping with another 25 pounds, but I think it is something 
worth asking about.
    [The information referred to can be found in the Appendix 
on page 78.]
    Mr. Massa. Two other real quick questions if I may, Mr. 
Chairman.
    Mr. Abercrombie. Sure.
    Mr. Massa. One is, first off, I honor all of the things you 
have said. It is incredible how far so many have come so 
quickly considering the starting point on these important 
issues. At any time during the years that this has been an 
issue of conversation have you ever felt that budgetary 
processes, money, inhibited your movement forward.
    General Fuller. Not from my perspective. We appreciate all 
the support we have received from Congress. I think we inside 
the Department of Defense understand the priorities of 
protecting soldiers, providing them the best. When they come 
out of that MRAP vehicle, when they climb into that MRAP 
vehicle, they are a soldier, we want to give them the best kit 
that they have as a baseline. As we have articulated before, 
the soldier is the basic and is the centerpiece of our 
formation. The vehicles are the mechanism in which they get 
there, whether it is an aviation platform, a MRAP or whatever 
it may be. And I don't believe we have been slighted or not 
requested or been supported by this committee or any of the 
other organizations in that endeavor.
    Mr. Massa. And this is the concurrence of the panel.
    General Brogan. I would suggest that there are some 
processes that occasionally made it challenging but certainly 
never prevented us from fielding the life-saving equipment we 
needed to our troops. For example, the above threshold 
reprogramming ceilings, there is a limited amount of money we 
can move around ourselves without the support from the full 
committees. But even at times when the full committees were out 
of session, we were still able to get the chairman and get 
signatures on those Above Threshold Reprogrammings (ATR) 
actions, reprogramming actions. So it never inhibited us from 
doing our job. As you know, money is appropriated for specific 
line items. Having the flexibility to move between those line 
items requires that sort of reprogramming.
    Special Operations Command has a pot of money that is kind 
of unlabeled, and it allows them, when a need arises, to 
rapidly react to it and then report after the fact how that 
money is spent. A similar pot of money for the other services 
would be very valuable. In the MRAP program, we have enjoyed 
the benefits of a transfer account. So all of the money from 
the MRAP program was put into one account, and then it was 
given to a service. And they either executed it on their own if 
they were buying the government-furnished equipment for the 
platform, or they transferred it to the MRAP program office for 
us to place on contract to buy vehicles and the things that we 
did jointly. If, instead of a transfer account that had been a 
true joint account, a huge amount of recordkeeping and 
accounting would have been able to be avoided because then the 
lead financial manager of the MRAP program could have done one 
set of books, one set of transactions. Now, she made it work 
through Herculean effort. I mean, I very much appreciate 
Chairman Taylor thanking me for what has been done on MRAP, but 
in all honesty, it was a huge team effort. Mr. Fahey sitting 
next to me, my counterpart in the army, has shouldered every 
bit of the load that I have. The program manager, the extended 
program team, Defense Contract Management Agency (DCMA), 
Defense Supply Center Columbus, the Aberdeen Test Center. A 
huge number of folks have made this effort possible. I am very 
pleased to be here to accept the thanks and congratulations, 
but in no manner did I do that on my own.
    Mr. Massa. Thank you.
    And with the indulgence of the Chair, one final follow-up, 
sir.
    If I could ask the staff sergeant, please. Sorry to make 
you shift chairs there, staff sergeant. Now, I know that no one 
is looking at you and you are under no pressure or scrutiny. 
But if you could ask of the United States Congress anything 
before or if you had to go back to where you came from in Iraq, 
what would you ask of us?
    Mr. Rowe. The restrictions that are mandated on us as 
soldiers in Iraq and Afghanistan, sir, I would like for some of 
those decisions or the majority of those decisions be left up 
to the commanders or the ground troop commanders on the ground. 
Depending on the mission or depending on the location of the 
mission, I would think that body armor, ammunition, being able 
to engage the enemy differently than you would in the city 
environment, those are decisions I would like to have left up 
to the commander rather than the Army in general or as a whole.
    Mr. Massa. Thank you for your candor. I appreciate that. 
And as an example of all who have served, again, I thank you 
personally.
    Thank you gentlemen.
    Mr. Chairman, I yield back the balance of my time.
    Mr. Abercrombie. [Presiding.] Mr. Bartlett.
    Mr. Bartlett. Thank you very much.
    General Brogan, it is nice to have a confirmation once in a 
while that what we are doing is really important and makes a 
difference. In this regard, just yesterday I was made aware of 
a communication received just this week by the manufacturer of 
a new device from a Marine field officer in Iraq. I would like 
to read it to you and the committee for the record, Mr. 
Chairman, if I may. It is short.
    He says, he e-mailed: I am the logistics Officer in Command 
(OIC) for my battalion currently serving in Baghdad, Iraq. We 
are having a serious issue compounded by the fragile political 
situation with bystander kids throwing rocks at our convoys as 
they pass by. We have had a few soldiers seriously injured from 
such occurrences. I researched the Long Range Acoustical Device 
(LRAD), and I believe that this device will fulfill our 
requirement to strongly deter personnel at distances of 50 to 
75 meters from throwing rocks at our passing convoys. I just 
wanted to confirm with my company that my assessment of your 
product is correct and that it is the product we require. Thank 
you for your assistance.
    The LRAD, which is the long range acoustical hailing device 
can be used to transmit clear voice instructions or deterrent 
tones to break up crowds, encourage vehicle drivers and animals 
to move out of the way and to simply communicate to the outside 
from the safety of the inside of the convoy or an MRAP vehicle. 
The new LRAD 500X was developed in cooperation with the Joint 
Nonlethal Weapons Directorate and Research, Development, and 
Engineering Center (RDEC). It completed safety testing by RDEC, 
and Aberdeen is in the initial stages of fielding to the Army 
while also being deployed and supported by the U.S. Navy.
    Combined Arms Support Command (CASCOM) commissioned 
Training and Doctrine Command (TRADOC) to complete an 
evaluation of the use of LRAD for convoy protection, and the 
recommendation was to field the system throughout the Army.
    My question is, are we moving fast enough to get this added 
layer of force protection to our troops in Iraq and 
Afghanistan? And specifically, what is the MRAP joint program 
office doing to rapidly equip our forces with this technology?
    General Brogan. Sir, there were some early requests from 
theater for acoustic hailing devices. LRAD was one of the 
companies that provided those devices. There were some others 
as well. And there is obviously debate between the 
manufacturers about whose is the better product.
    Specifically, with respect to MRAP, there has been no 
request from the field for us to integrate an acoustic hailing 
device on that platform. We certainly have that capability down 
at Space and Naval Warfare Systems Command (SPAWAR) Charleston 
to conduct that sort of integration and, if the need arises, to 
field those types of devices into theater.
    Mr. Bartlett. General, you can't ask what you don't know 
exists. I suspect that most of your people in MRAPs don't even 
know this capability exists. Wouldn't it be nice to let them 
know that?
    General Brogan. Sir, we are familiar with LRADs in the 
program office. I have been shown a number of that type of 
system by several manufacturers. And as I said, we have fielded 
some of this capability into theater. We are using some 
acoustic hailing devices at entry control facilities and things 
of that nature. So I believe there is some knowledge of those 
systems in theater. And if they wanted more, they have 
certainly not been shy about asking us for things when they 
need them.
    Mr. Bartlett. I appreciate that very much.
    General Fuller, I am very distressed that there are 
newspaper articles out there implying that some of our young 
men and women in the theaters over there are wearing defective 
body armor. I have been briefed on this issue, and I don't 
think there is any evidence that this body armor is in fact 
defective.
    The DOD IG report raises a number of questions regarding 
the integrity of the testing process for body armor. 
Specifically, the report states that parts of the testing were 
not consistently conducted or scored in accordance with 
contract terms and specifications. I don't think this means 
that our soldiers in theater are wearing unsafe body armor. 
This is just a disagreement as to how to conduct these tests, 
is it not?
    General Fuller. Sir, I appreciate your concern. It is a 
disagreement on how we conduct the tests. We do agree with the 
Department of Defense Inspector General that we had 
deficiencies in our testing processes, not in our product. Our 
product is safe. What we have done is gone and changed the 
processes. We have pulled the testing out, which was a point of 
discussion; we pulled the testing out of a National Institute 
of Justice certified lab and brought it back within the 
government. We are talking about a critical force protection 
survivable item. We should be monitoring that within the 
government, and we have done that. We have pulled back the 
testing inside the government. We have changed our processes 
and our procedures. And to this date, we recognize we needed to 
fix this, and we have changed it. We have gotten support from 
the Director of Operational Test and Evaluation. We applaud the 
insights that were provided to us by the Department of Defense 
Inspector General, and we want to fix this.
    But we never issued defective body armor. We might have had 
process issues. We have cleaned up these process issues. We are 
moving forward to continue to straighten this out. But soldiers 
have the best body armor by far. And besides the discussion of 
Sergeant Rowe talking about receiving shots in the chest, they 
have the best body armor, and they continue to have the best.
    Mr. Abercrombie. Would you yield a moment?
    Mr. Bartlett. Yes, Mr. Chairman.
    Mr. Abercrombie. Ms. Ugone and Mr. Sayre, you heard 
Representative Bartlett's question. He was making a 
differentiation, if you will permit me, Roscoe, between 
experiment protocols per se and whether or not the body armor 
could be construed as being insufficient or not up to standard 
as a result of those. You don't have to argue with each other 
here about what your reports say or don't say. But could you 
comment with direct reference to Mr. Bartlett's observation and 
question?
    Mr. Sayre, why don't you go first.
    Mr. Sayre. Thank you, Mr. Chairman for the opportunity to 
respond. The Inspector General has issued an important and 
significant report with significant recommendations that we 
find we are in agreement with all but one. In fact, this report 
is very supportive of our view that department-wide standards 
and processes for the testing of personal protection equipment 
is essential, and we support that view. Since the House Armed 
Services Committee (HASC) hearings in June of 2007 relative to 
the dragonskin issue, the Army Test and Evaluation Command has 
conducted significant testing of ballistic inserts under our 
oversight. We can report that many of the issues in the 
Inspector General's report had been resolved through that 
testing process; not all of them, but some of them independent 
testing by the Army Test and Evaluation Command is a 
significant improvement. New instrumentation that resolves many 
of the measurement issues, new processes that standardize the 
scoring and have resulted in, and I will comment on some of the 
statistics, resulted in improved scoring and consistency.
    Furthermore we also appreciate that the Congress, 
recognizing this, has in the last Defense Authorization Act 
given us authority to exercise oversight over these systems. 
And we are moving out to do that so that, by the end of this 
calendar year, we believe we will have processes in place that 
will address all of the issues mentioned in the Inspector 
General's report. We do take issue with the finding that two 
tests failed and one was inconclusive which resulted in their 
recommendation to return the plates. We defer to the Secretary 
on the return, but we do believe that using sound engineering 
judgment and the contract specifications in place and our 
professional judgment, that the three first article tests in 
question did in fact meet the contract specification, and that 
is our view. We do appreciate the issues that the Inspector 
General has raised about the consistency of scoring. But we 
were asked to conduct a limited review of these three specific 
tests which I believe to be appropriate as these first article 
tests are the basis to qualify the design and proceed to 
procurement. So we looked at the record of these tests and made 
this judgment. I am prepared to expound on each one of these if 
the members would like me to.
    Mr. Abercrombie. I don't think that is necessary. The 
question here is, in your judgment, are the plates that are 
being utilized in the field meeting the test of field service?
    Mr. Sayre. My answer is that we stand behind the judgment 
that these three specific first article tests of these three 
designs met the contract specification.
    Mr. Abercrombie. You understand the differentiation here. 
We are not--there can be arguments about whether or not the 
elements of scientific experimentation are being met; 
replication, et cetera, those kinds of things. It may be--an 
argument about that doesn't mean that the product coming out of 
that process is any less capable than that which was contracted 
for in the first place.
    Mr. Sayre. I don't believe it is any less capable.
    Mr. Abercrombie. Okay.
    Ms. Ugone, you get the context of the question?
    Ms. Ugone. Yes, I do.
    Mr. Abercrombie. Because I really don't think this is the 
forum to conclude, let alone get an explication of what the 
differences may have been as to whether or not scientific 
procedure was adequately followed in all instances, let alone 
documentation of it.
    Ms. Ugone. I agree with you, Chairman Abercrombie, but I 
would like to in general answer the question.
    And thank you, General Brogan, for sharing the mike. If I 
could just give you a little bit of context in which we did 
this audit. This report is a third in a series of body armor 
reports conducted in response to requests from two Members of 
Congress.
    This report had two findings. The first finding related to 
the inconsistencies in the testing and scoring processes during 
first article testing for contract 0040, and we used the 
criteria of the contract specifications. The second finding had 
to do with a lack of DOD standards for ballistic testing. In 
fact, with regard to the recommendations, we do not believe we 
have any disputed recommendations. The Secretary of the Army 
had agreed to identify and collect the ballistic inserts that 
are in question. However, we are still in disagreement about 
the finding. And as you have already mentioned, we are not here 
to argue the actual finding, but we are satisfied with the 
response that both the Army and DOT&E have made to our 
recommendations.
    What we did also in our final report is ask for an 
additional information on the plan of action the Secretary of 
the Army has implemented as a result of his order to identify 
and collect these ballistic inserts. We have also added a 
recommendation with respect to not allow government contracting 
officer technical representatives to make any changes to 
contracts without authorization from the contracting officer.
    Mr. Abercrombie. Well, again, though, I appreciate all of 
that, and I understand it.
    Ms. Ugone. Well, we can state because of the 
inconsistencies, the Army does not have assurance that all 
inserts purchased under contract 0040 provide the level of 
protection required by the contract.
    Mr. Abercrombie. Okay. Well, then, that goes to your point, 
Roscoe. Back to you.
    Mr. Bartlett. Thank you very much. Let me give an example 
of what I understand was one of the inconsistencies. The plates 
are exposed to a shot. And the speed of the bullet is 
determined by camera, and sometimes there is an over-velocity 
of that first shot. Sometimes the testing officer would simply 
replace that plate with another plate and another shot to have 
the correct velocity. Sometimes he would take that plate and 
subject it to the second shot. If there was no penetration with 
the second shot--see, the notion is that the first shot, 
although it may not have penetrated the plate, may have 
weakened the plate so that it was now more susceptible to a 
second shot. So sometimes the officer would simply take the 
plate that had an over-velocity shot, expose it to a second 
shot, and if the second shot did not penetrate, then he made 
what I think is a logical conclusion that the plate is okay. 
Now, clearly, that is an inconsistency because sometimes he 
would simply take a second plate and do a correct velocity shot 
and then proceed with the test.
    Now, if the first shot was over-velocity and you used the 
plate for the second shot and the second shot went through the 
plate, why did it go through? Because the plate was defective 
or because its capability was reduced by the first shot? So now 
he would take a new plate and do it again. This is not 
consistent. But I don't think that there is any evidence that 
this results in any lesser of a test for it. And I don't know 
what the other inconsistencies were.
    But my major concern is that, why couldn't this have been 
resolved in-house? I like oversight, and I would love to have 
seen an article after the fact saying that the Inspector 
General found these problems, the Army immediately responded to 
this and fixed it, and none of the plates were found to be 
defective. Now there is the press out there which is implying 
that we have a lot of body armor out there that is putting our 
young people at risk. I am not sure that is at all true, and I 
think that does a disservice to all of you who work so darn 
hard to provide our people with the best equipment to have this 
out there. Why couldn't this have been resolved this way before 
it got out into the press? That added nothing to this, by the 
way, getting it out into the press. Why couldn't it have been 
resolved before it got out into the press? And what can we do 
in the future to make sure this kind of thing is resolved? I 
want oversight. I want visibility. I would love to have had an 
article out in the press saying that the IG did this 
inspection, the tests weren't consistent, the Army corrected 
the thing, they went back and the tests are consistent now, and 
what do you know, all of the armor was good, thank God. What do 
we have to do in this committee to make sure that this kind of 
thing doesn't get out prematurely in the future and harm what 
you all are doing and the image of this whole institution?
    Ms. Ugone. Mr. Bartlett, if I could answer that question. 
You had mentioned a fair shot determination. And I am going to 
respect Chairman Abercrombie. I am not going to get into the 
details. But the issue with that was scoring. And how it was 
scored and the manner in which it was scored resulted in a 
first article test that had passed that really should have 
failed if you looked at the scoring. And when they entered into 
that determination, they already had four points; there is a 
six point system. And what we are saying is, had they scored it 
appropriately, it would have failed. So we can provide you more 
details upon that for the record. But in the second instance, 
with regard to our effort to dialogue with the Army, 
absolutely, we have been dialoguing with the Army since the 
middle of October when we first alerted the Army to the issue 
that we had related to standards of ballistic testing. We have 
had two discussion drafts, one formal draft. We have had 
numerous meetings. And, frankly, the Army has taken corrective 
action on all our recommendations. We don't have a disputed 
recommendation.
    Mr. Bartlett. Then why would we have this negative article 
out in the press? What could we do in the future to avoid that? 
This is not helpful to you or any of us.
    Ms. Ugone. I am not sure that I can do anything about the 
press, sir.
    Mr. Bartlett. Maybe we can, Mr. Chairman.
    If I might I have one more issue I would like to address 
very briefly, if I could.
    Mr. Abercrombie. Yes, you may.
    Let me just say, this hearing, I think, provides the 
necessary incentive not to have this occur again, right? Okay. 
I have already quoted my mother once. I will quote her again. 
She used to say, a word to the wise should be sufficient.
    Mr. Abercrombie. She said that to me numerous times. 
Hopefully, we won't have to say that again here.
    Mr. Bartlett. General Brogan, we have read and heard 
testimonials in regard to how the ESAPI body armor has and is 
saving lives, and that it is obviously very important. We have 
also heard that we have added so much weight to what the 
individual soldier and marine has to carry that it is causing 
serious long-term medical problems and decreased deficiencies.
    What are we doing to motivate or incentivize industry to 
reduce the weight of body armor, say by 50 percent? There is 
currently, as you know, no dedicated Research and Development 
(R&D) funding line. Maybe that is our fault.
    Mr. Chairman, we need to fix that.
    There is no dedicated R&D funding line for body armor, and 
the procurement is done through the Operations and Maintenance 
Command. What do we have to do so that body armor gets the same 
level of interest as a major weapons system, such as the Future 
Combat System or the F-22.
    I have just got to think that meaningful R&D here, basic 
research and R&D could yield meaningfully better armor. What do 
we have to do, Mr. Chairman and panel, so that we have a 
dedicated line for R&D?
    Mr. Abercrombie. Maybe Mr. Fahey would be most appropriate 
to speak at this juncture. You are getting an offer here, you 
understand.
    Mr. Fahey. I mean, I can talk about the armor of vehicles, 
and General Fuller can talk about the armor of personal vests. 
But we do have a----
    Mr. Abercrombie. Do you have a line as well, or not?
    Mr. Fahey. We do.
    Mr. Bartlett. Staff tells me we don't have a dedicated R&D 
line for body armor.
    General Fuller. Sir, for body armor, that is correct.
    Mr. Abercrombie. So, just for the record, Mr. Fahey, that 
is why I wanted to ask you, you do have a dedicated line, 
right?
    Mr. Fahey. For vehicles.
    Mr. Abercrombie. For the vehicle, right.
    Mr. Bartlett. I am asking body armor.
    General Fuller. Sir, that is correct. At this time, the 
Army does not have a dedicated line for both research and 
development funding nor procurement funding for body armor. 
However, it is predecisional, but the Army is looking at 
funding that in the near future.
    We also have efforts underway, in our science and 
technology field, to try to reduce the weight of the armor and 
give it the same protection at a reduced weight or give it 
increased protection at the same weight. We are funded in that 
area. The research and development line associated with 
constant improvements is in our science and technology field 
right now, not directly in a body armor research and 
development line.
    Mr. Bartlett. Thank you for your patience, Mr. Chairman. I 
yield back.
    Mr. Abercrombie. So you compete, then, within that 
category, correct?
    General Fuller. That is correct, sir.
    Mr. Abercrombie. What is the extent of the category? What 
are some of the other elements that are part of that science 
and technology line, if you know?
    General Fuller. Yes, sir. Part of that is associated with, 
for example, as Mr. Fahey said, the armor associated with 
vehicles. Some of the technologies that we will see are common 
between a ground platform armor and a body armor. So we are 
looking at the basic core elements that allow us to----
    Mr. Abercrombie. Who do you compete with aside from that in 
that category?
    General Fuller. Sir, we will compete with all the efforts 
that the Army has going on in research and development, whether 
it is in the aviation----
    Mr. Abercrombie. So you are in a big pool.
    General Fuller. Yes, sir.
    Mr. Abercrombie. You are not in a little pond.
    General Fuller. Correct, sir.
    Mr. Abercrombie. I think it is important, in response to 
Mr. Bartlett's inquiry with regard to the question of whether a 
line is appropriate, you are competing against some pretty 
powerful internal research and development interests.
    General Fuller. Roger, sir. On the science and technology 
side, a lot of the basic science.
    Mr. Abercrombie. Okay, very good.
    General Lennox. Mr. Chairman, do you mind if I add 
something to this?
    Mr. Abercrombie. No, not at all.
    General Lennox. There has been a lot of scientific talk and 
testing talk across the table here. And I want to go back to 
Representative Bartlett's point and underscore the fact that we 
believe every soldier has absolutely safe body protective 
armor. The Secretary of the Army has made a decision to 
identify and collect those that are disputed in this disputed 
lot--it is just the prudent thing to do----
    Mr. Abercrombie. That is 30,000-plus plates, right?
    General Lennox. Exactly, sir. So we don't have any question 
in the soldier's mind that they don't have the finest body 
armor in the world. And I just wanted to state that.
    Mr. Abercrombie. What stage is that in, that collection?
    General Lennox. The order went out last week, sir. We are 
monitoring that.
    Mr. Abercrombie. Okay. Very good.
    Mr. Hunter, do you want one more shot?
    Mr. Hunter. I just want to say, my father was in the 173rd 
Airborne in the Army Rangers in Vietnam. I was a marine in 
these latest conflicts. And my little brother is now a 
specialist, just graduated from advanced infantry training 
(AIT). He is going to jump school in about a week and a half. 
So if you see Specialist Hunter, you can go ahead and haze him 
and tell him that his older brother said it was okay.
    But, General Lennox, this really is a family business for 
quite a few of us up here. And what you all do affects our 
family and our friends as well as our constituents and young 
people across America. So I just want to say thank you. And 
especially to the staff sergeant, who was very candid here and 
answered the questions in front of all these folks, thank you 
for your service.
    First Sergeant, thank you for yours, I really appreciate 
it.
    And semper fi.
    General Lennox. Congressman Hunter, if you don't mind, I 
didn't want to leave you with the impression that commanders in 
the field don't have a lot of leeway, enormous leeway to do 
what is right for their soldiers. And that is taking place 
today. It is the commanders in the field, their role and 
responsibility to make these important decisions about 
tradeoffs and mobility and body protection. And it is not 
something that is being dictated by headquarters, Department of 
the Army. We provide the equipment. We provide the resources 
for commanders in the field to fight the fight and make those 
decisions.
    Mr. Hunter. Good. That is how it ought to be.
    Mr. Abercrombie. And for the record, this is something that 
the committee, let alone the Congress, won't be involved in, 
that is for sure. That is a policy and tactical and strategic 
decision that you have to make--or the services have to make, 
right?
    General Brogan, I assume you wouldn't disagree with that. 
That is not something--to me, I will tell you, it is like this 
question about the UAVs and whether it is 3,000 feet or 3,001 
feet and whether the Army is doing it or the Navy and all the 
rest, we shouldn't be involved in all that stuff. And that got 
kicked to us. What happens is, if there is a question like that 
and it doesn't get settled internally, what happens is, it ends 
up here. That is the problem. But I can assure you we won't get 
into that.
    But what we do want to get into--and I am going to ask my 
questions right now, if that is okay, and then we will finish 
up.
    Especially with relation to the last line of questions 
about a written line in order to do research and so on, is all 
of this or any of this part officially a program of record? 
Because I am concerned, going back to the MRAP situation, you 
have already heard me speak today and you have heard 
Representative Taylor mention this over and over again in this 
hearing and others, I am very concerned that this not drift 
into the supplemental budget situation. If I have my way, we 
will never have another supplemental budget unless it is real, 
an actual emergency, and it is supplemental to the actual real 
budget.
    So is the research and the activity associated with the 
vehicle or with the personal armor force protection, is this a 
program of record?
    General Brogan. Sir, it is a program of record. But we have 
done some of the procurement----
    Mr. Abercrombie. Is the MRAP acquisition a program of 
record?
    General Brogan. Body armor. The family of personal 
protective equipment is a program of record.
    Mr. Abercrombie. What about the vehicle force protection?
    General Brogan. Each individual vehicle program--leave MRAP 
off the table for a minute, if I may, sir--but Humvees, 
Advanced Artillery Vehicle (AAV), Expeditionary Fighting 
Vehicle (EFV), tank, those are all programs of record. And the 
equipment--survivability, packages, things that go with them--
are part of the program of record. So research, development, 
testing and evaluation lines are rolled into the budget for 
those particular things. And they are normally at the program 
element level.
    Part of the challenge is, with personal protective 
equipment, there is a whole family of things that are included 
in a single program element because program element is a fairly 
high level, so helmets, body armor, flame-resistant equipment, 
all of that is included in that one Program Element (PE), the 
procurement, because they are very small dollar value items. It 
is really not procurement. It is purchasing with operation and 
maintenance funding.
    Mr. Abercrombie. How are you funding the former? What you 
just cited before this last--how are you funding all the things 
that you just mentioned?
    General Brogan. A major vehicle program you would procure 
after you have done the research effort, the development 
effort, with procurement Marine Corps dollars, the Procurement, 
Marine Corps (PMC) appropriation.
    Mr. Abercrombie. Where does that fit in in the program of 
record? Is it a base budget item or not?
    General Brogan. It absolutely is a base budget item. And we 
have in our base budget money for this personal protective 
equipment. We did, however, take advantage of supplemental 
funding to accelerate the fielding of this equipment once we 
went to conflict. But we always had money to buy vests, to buy 
plates in our base budget.
    Mr. Abercrombie. Okay. Well, let's see, I understand that. 
That is a true emergency supplemental item that gets no 
argument from me or from other members because you are already 
doing something. The situation arises that wasn't anticipated 
during the regular budget process. You have to supplement it 
because it is in fact an emergency to make sure everybody has 
what they need. Is that a fair summary of what an emergency 
supplemental budget should be?
    General Brogan. I concur with your assessment, yes, sir.
    Mr. Abercrombie. Well, okay. Where does the MRAP fit into 
this?
    General Brogan. MRAP was not a program of record. It was 
funded purely under supplemental appropriation. However, all of 
the oversight that was provided in that program by the 
Department of Defense, Secretary Young, Secretary Etter, now 
Secretary Stackley, Mr. Popps and Secretary Bolton within the 
Army, it was managed as if it was a program of record.
    Mr. Abercrombie. I agree with you on that. But the status 
today, it is still not a program of record.
    General Brogan. In fiscal year 2010, the direction has been 
provided by the Department of Defense that each service will 
fund the sustainment of those vehicles not specifically 
associated with combat operations within their base budgets. So 
it, in effect, migrates to program of record status----
    Mr. Abercrombie. This is very good. You are going to be 
major general sooner than you think.
    Leaving aside for a moment the migrating, in the effect, it 
is not a program of record as of now, although you are trying 
to treat it as much as you possibly can.
    General Brogan. Because it will be in the base budget, 
because it will have a program element associated with it----
    Mr. Abercrombie. It will be a program of record?
    General Brogan [continuing]. It will be a program of 
record.
    Mr. Abercrombie. So we haven't done the 2010 budget yet.
    General Brogan. Correct, sir.
    Mr. Abercrombie. That is upcoming. We are living with a 
continuing resolution--time out. I am asking for a real 
purpose. I am not trying to harass you or trick you or 
anything. There is a method to this.
    We are dealing with a continuing resolution, and we will 
have a budget shortly that will be presented to fix that. There 
will be a supplemental budget, much to my great regret, that we 
will have to deal with in one form or another. Then there will 
be the budget for 2010, for the fiscal year starting in October 
of this year, of this calendar year, right?
    General Brogan. That is correct.
    Mr. Abercrombie. So, will the MRAP program be a program of 
record in the upcoming fiscal year 2010 budget which we will be 
drafting in terms of the DOD bill and subsequent appropriations 
over the next few months?
    General Brogan. I would say, yes, given that each service 
was directed to fund its own share of the operations and 
maintenance costs of that program----
    Mr. Abercrombie. You can see where I am going, General. I 
hope the message goes back to the Pentagon and the 
administration----
    General Brogan. It will remain a hybrid program, because as 
new things emerge, for example, if we have to insert a 
technology into that program that we did not anticipate, it is 
going to come to you in supplemental.
    Mr. Abercrombie. Yes, but that is separate. A supplemental 
budget should be on programs of record. And if some emergency 
comes up that wasn't anticipated by anybody about anything and 
it doesn't fit in anything, yes, then we can take it up. But 
that is an emergency, an urgent program. I mean, that is what 
the whole MRAP was. And that came out of the Congress. It 
didn't come out of the Pentagon. But now that it is there, I 
hope we are not going to get into, well, this got originated by 
the Congress, so we are not going to pay attention to it.
    General Brogan. No, you are not, sir. The services will 
budget to continue the vehicle and----
    Mr. Abercrombie. The message should go back upstairs or 
down the street, or however it goes, or across the river, this 
has got to be a program of record.
    General Brogan. I understand, sir.
    Mr. Abercrombie. Okay. And then one other thing on the 
question of the multiple engines and the different variations--
none of which I disagree with, by the way, the variations, they 
all have their reasons. But what are you doing, because we have 
scarce resources, to prevent duplication of effort? Maybe that 
is a program issue.
    General Brogan. Well, sir, one of the things that we did 
was we trained all of the commercial field service 
representatives----
    Mr. Abercrombie. In other words, I am not conflating 
multiple efforts with duplication, as I realize there are 
variations, the different manufacturers are not doing the same 
thing. There are different vehicles that are being put--there 
are variations in the vehicle. So I am not saying that the 
variations mean that that is duplication.
    General Brogan. I understand. So, for example, we trained 
field service representatives to operate on all of the 
platforms so we didn't have to hire them just from an 
individual company to work only on that company's vehicles. So 
we didn't duplicate field service representatives, we use a 
single one who is universal.
    Because the engines on these vehicles are widely used in 
both commercial and Department of Defense, we are able to take 
advantage of some of those economies of scale.
    Mr. Abercrombie. Okay. One last thing, but you need not 
answer it now, but I would appreciate in writing, I would like 
both the Army and the Marine Corps, when contemplating the 
shift of forces to one degree or another from Iraq to 
Afghanistan, to give us, if you can, your primary force 
protection challenges--and I am putting it in the plural. I am 
not asking you to rate one, two, three, or something like that. 
In fact, you may have one; I don't know, maybe you will have 
five. But if you can give us your primary force protection 
challenges with an eye toward helping us draft the DOD bill for 
this upcoming fiscal year.
    General Lennox. Yes, sir.
    Mr. Abercrombie. The budget that will be forthcoming within 
the next few weeks, I expect, isn't going to really address 
that. It is going to get rid of the continuing resolution and 
will essentially help us to operate up until October of this 
calendar year. So I am thinking about, for the next DOD 
authorization bill and its appropriation implications, if you 
could simply provide us with your primary force protection 
challenges as you see them for the Marine Corps and for the 
Army.
    General Lennox. We will do that, sir.
    [The information referred to can be found in the Appendix 
on page 77.]
    Mr. Abercrombie. Very good. You have been very patient. And 
again, I apologize for the fact that we had to have this break 
in between, but this has been very, very helpful and useful to 
us. I hope you found it informative as well. I appreciate it. 
Aloha to everybody here.
    [Whereupon, at 5:40 p.m., the subcommittee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                            February 4, 2009

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            February 4, 2009

=======================================================================
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                            February 4, 2009

=======================================================================
      
          RESPONSES TO QUESTIONS SUBMITTED BY MR. ABERCROMBIE

    General Lennox. Mr. Chairman, improving MEDEVAC response times 
requires a systematic approach and the synchronization of aircraft, 
medical capabilities, communications, infrastructure, training, and 
security to support these operations. The Secretary of Defense directed 
a comprehensive bottom-to-top review last fall on how to best 
synchronize efforts in theater and improve MEDEVAC response times 
there. Based on detailed analysis and coordination, the Department of 
Defense is now executing a course of action that achieves parity of 
MEDEVAC operations in both theaters to the mission completion standard 
currently used in Iraq. This is to be accomplished through constructive 
MEDEVAC procedural improvements and by adding 16 more dedicated 
aircraft and 3 additional forward surgical teams. The medical 
infrastructure to support operations in Afghanistan is included in the 
Army's regular budgeting process. The incremental costs of our 
operations in Afghanistan are budgeted as part of the Overseas 
Contingency Operations (OCO) request. [See page 24.]
    General Brogan. The Army and the Marine Corps continue to 
coordinate effectively on the development and fielding of force-
protection solutions. The DoD has established a standard system for 
truck armoring and both the Army and Marine Corps are armoring their 
vehicles to the same level as we converge on armor solutions. As for 
individual personal protective equipment, the Marine Corps coordinates 
closely with PEO Ground Soldier. Both organizations continue to share 
test data with one another in an effort to continually upgrade and 
provide the best protective equipment available to our troops. We share 
all test data and communicate openly with each other. Even when 
specific products are different as in the case of Medium Tactical 
Vehicle Replacement and Improved Modular Tactical Vest, the protection 
levels are the same.
    The Army and the Marine Corps do not believe that duplication of 
effort is counterproductive. There is value in competition and we 
effectively leverage our scarce resources by challenging industry to 
come up with the best and most innovative solutions available today. 
Through these efforts, we ensure that our Services are provided with 
the most sophisticated and reliable equipment on the market today.
    There are no unique force protection challenges in Afghanistan. 
However, as we shift forces from Iraq to Afghanistan the different 
terrain, topography and cultural landscape will present challenges. 
Restrictive roads, and mountainous terrain will restrict the use of 
MRAPs. Minimizing the weight of personal protective equipment will be 
more important in the mountainous terrain of Afghanistan than in the 
flat urbanized landscape in Iraq. We are developing policies and 
acquisition practices for our future equipment that will make it more 
modular and scalable to allow us to increase and decrease armor 
protection and its associated weight according to the commander's 
assessment of mission requirements and threat. [See page 40.]
    General Lennox. As the Army repositions forces from Iraq to 
Afghanistan we recognize we may need to address resulting increases in 
force protection requirements. As movement on existing and future 
Ground Line of Communications (GLOC) heightens, we may need additional 
security forces as well as route clearance assets to secure our 
logistics. Aviation requirements may increase along with ground based 
radars to ensure integrated networked force protection coverage. 
Additional Intelligence Surveillance Reconnaissance (ISR) assets will 
also facilitate heightened threat warning in support of force 
protection. As we flow additional soldiers into existing bases as well 
as establish future bases we will plan to increase base force 
protection operations should OIF conditions warrant the increase in 
those operations. [See page 40.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MR. TAYLOR
    General Brogan. We cannot respond at this time due to SS 
sensitivities. In the transcript, Gen Brogan states that he would take 
the question for the record and respond after the contracts have been 
awarded. The estimated award date will be in the month of May. [See 
page 26.]
    General Lennox. The Army has identified that a total of 702 MRAP 
vehicles are currently needed to support pre-deployment training. The 
Army expects to have that many vehicles at approximately twenty 
different training locations by the end of December 2009. There are 
already 26 vehicles supporting training in the United States, and 
another 25 have been identified in Kuwait for shipment back to support 
training by April 2009. As the Army receives the newest and most 
capable MRAP vehicles in theater, older and less capable vehicles are 
being replaced and returned for use in training Soldiers before they 
deploy. The Army will adjust the schedule for the return of these older 
vehicles based on a number of factors, including how much maintenance 
is required on the vehicles before they are shipped, and when shipping 
is available. Changes in the operational situation could also cause the 
Army to adjust the schedule or numbers. [See page 27.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MR. MASSA
    General Lennox. The Army's current inventory of personal body armor 
with Enhanced Small Arms Protective Insert (ESAPI) plates is generally 
not worn during airborne operations with the T-10 parachute, as the T-
10 harness is not large enough to accommodate the increased size of the 
jumper wearing the body armor with plates inserted. Additionally, the 
Modified Improved Reserve Parachute Systems (MIRPS) is limited in the 
weight it will safely support--the weight of the body armor severely 
limits the amount of other equipment a parachutist can carry. The new 
T-11 parachute, which replaces the T-10, is specifically designed to 
support greater weights to include the additional weight of all body 
armor. The additional size of the T-11 harness allows parachutists to 
jump with the Improved Outer Tactical Vest (IOTV) including mounting 
the front and rear ESAPI plates. The IOTV in this configuration is 
certified for T-11 airborne operations. Parachutists no longer have to 
jump without protective plates in their body armor. [See page 28.]
                                 ______
                                 
  RESPONSES TO QUESTIONS SUBMITTED BY MR. WITTMAN AND MR. ABERCROMBIE
    General Lennox. Mr. Wittman, I'll address the carbine first. In the 
same Center for Naval Analysis (CNA) study you cited, approximately 90% 
of the Soldiers surveyed were satisfied with the performance of the M4 
Carbine. Additionally, in another recent survey of 917 Soldiers with 
recent combat experience with the M4 in Iraq or Afghanistan, 89% of 
Soldiers reported overall satisfaction with the M4 and only 1% of these 
Soldiers recommended that the M4 be replaced. Although the weapons are 
performing well, the Army continually seeks ways to improve their 
performance as well as provide Soldiers with enhanced capabilities. The 
Individual Carbine Capabilities Development Document (CDD) is currently 
in the staffing and approval process. The goal for the CDD to complete 
all staffing is September 2009. As directed by Secretary Geren, we plan 
to conduct a full and open competition utilizing the new requirement 
beginning in late 2009. The new requirement is not caliber specific and 
will allow different calibers to compete.
    Addressing the dissatisfaction for the handgun, the Army's Small 
Arms Capability Based Assessment confirmed the shortfall in the area of 
close engagements which includes both the pistol and the sub-compact 
personal defense weapon. The Army has prioritized the development of a 
sub-compact or ``miniature carbine'' capability ahead of the pistol at 
this time. However, the Air Force (AF) has completed a new joint 
requirement for a handgun that can be adopted by any service. The Army 
is looking closely at adopting this requirement in the near future. The 
AF wrote the Modular Handgun System Capabilities Production Document 
with significant input from the Army and joint participation from all 
services. This new requirement addresses an improvement in stopping 
power along with improvements in ergonomics and other areas. The CNA 
study reveals that only \1/2\ of 1% of Soldiers surveyed had a stoppage 
with their M9 that made a significant impact on their ability to engage 
the enemy. Even so, by adopting the AF pistol requirement, we can 
address all of the issues with the M9. However, I need to state again, 
the priority for the Army in this area is currently the carbine and the 
sub-compact personal defense weapon. [See pages 16 and 18.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            February 4, 2009

=======================================================================

      
         QUESTIONS SUBMITTED BY MR. ABERCROMBIE AND MR. TAYLOR

    Mr. Abercrombie and Mr. Taylor. Many force-protection items, such 
as body armor, vehicle armor, and counter-IED equipment have been 
developed by both the Army and Marine Corps to address similar 
requirements. In 2006, GAO reported that a lack of a synchronized 
approach between the Marine Corps and the Army on addressing truck 
armor requirements and solutions resulted in the Marine Corps 
identifying its truck armor requirements and seeking armor solutions 
months after the Army, potentially delaying the availability of armored 
vehicles to deployed Marines.- How do the Army and Marine Corps 
coordinate on the development and fielding of force-protection 
solutions that address similar urgent needs requirements of both 
services?- How does each of the services ensure that they are 
preventing duplication of efforts and effectively leveraging their 
scarce resources when developing solutions that might address both Army 
and Marine Corps needs?
    General Lennox. In the area of Tactical Wheeled Vehicles, the Army 
and Marine Corps coordinate on force-protection solutions through the 
Joint Program Office for MRAP vehicles, Protection issues for other 
vehicles used by both services are coordinated at the Army and Marine 
Corps Board (AMCB). For future programs, such as the Joint Light 
Tactical Vehicle, the vehicle is being developed jointly to ensure that 
they have inter-service commonality and economical as possible.
    The Army and Marine Corps constantly coordinate with each other 
through the AMCB and the ``Army-Marine Corps Staff Talks''. These 
forums help ensure that the services are aware of each others on-going 
initiatives, and are able to take advantage of the other service's 
efforts when possible.
    Mr. Abercrombie and Mr. Taylor. What are your primary force 
protection challenges that you will face should we shift forces from 
Iraq to Afghanistan? What does the Army need? What does the Marine 
Corps need?
    General Lennox. As the Army repositions forces from Iraq to 
Afghanistan we recognize we may need to address resulting increases in 
force protection requirements. As movement on existing and future 
Ground Line of Communications (GLOC) heightens, we may need additional 
security forces as well as route clearance assets to secure our 
logistics. Aviation requirements may increase along with ground based 
radars to ensure integrated networked force protection coverage. 
Additional Intelligence Surveillance Reconnaissance (ISR) assets will 
also facilitate heightened threat warning in support of force 
protection. As we flow additional soldiers into existing bases as well 
as establish future bases we will plan to increase base force 
protection operations should OIF conditions warrant the increase in 
those operations.
    Mr. Abercrombie and Mr. Taylor. Do you consider the X-SAPI 
requirement to be an urgent and compelling need? If not, why?
    General Lennox. Chairman Abercrombie and Chairman Taylor, the Army 
does not consider the XSAPI requirement to be urgent and compelling. 
The approval of the XSAPI requirement is a prudent, precautionary 
measure to ensure the combatant commander in theater has the ability to 
counter potential emerging threats.
    Mr. Abercrombie and Mr. Taylor. Are you aware of an operational 
need statement, universal urgent need statement or joint urgent 
operational need statement for a next generation body armor plate that 
provides for a higher level of ballistic protection?
    General Lennox. Chairman Abercrombie and Chairman Taylor, I am not 
aware of an Operational Need Statement within the Army or a Joint 
Urgent Operational Need Statement being submitted for a next generation 
body armor plate. I will defer to BG Brogan regarding the status of any 
United States Marine Corp urgent need statement.
    Mr. Abercrombie and Mr. Taylor. Explosively formed projectiles 
(EFPs) are a primary killer on the battlefield. What force protection 
measures and TTPs are we using to defeat this threat? How are we 
staying ahead of this adaptive enemy?
    General Lennox. The Army acknowledges that Explosively Formed 
Projectiles (EFPs) are a significant enemy threat and as a result has 
taken extensive measures to protect Soldiers. The Mine Resistant Ambush 
Protected (MRAP) vehicle was initially developed to protect Soldiers 
against the Improvised Explosive Device (IED) threat. As the threat has 
changed to include EFPs, the MRAP design underwent several changes to 
defend against them. The Army has also developed systems that target 
EFP initiators. Additionally, the Army has continued to develop 
tactics, techniques and procedures (TTPs) designed to counter the 
threat. We have included individual and team training of EFP awareness 
into Counter Improvised Explosive Device (IED) training across the 
Army. Organizations designed specifically to defeat IEDs have been 
established and serve a vital role in providing EFP awareness and 
measures to counter the threat. Highly trained post attack analysis 
teams and route clearance packages are examples of these types of 
organizations.
    Timely and relevant intelligence is the primary method we stay 
ahead of new threats and an adaptive enemy. Continuous identification 
of emerging EFP technology and enemy TTPs is key to the identification 
of new requirements for equipment and training. The Army's Attack the 
Network IED targeting methodology is intelligence driven and has been 
highly effective in defeating EFP networks.
    Mr. Abercrombie and Mr. Taylor. How do you encourage the 
development of next generation body armor by the industrial and R&D 
communities and what is the Army and Marine Corps's process for 
evaluating these potential advances? Is this process standardized? What 
is the extent of the R&D effort to reduce the weight of body armor 
systems?
    General Fuller. The Army and Marine Corps both work extensively on 
a continual basis with representatives from industry to address 
material requirements. Both participate, along with the other Services 
and SOCOM, in forums such as the Cross Service Warfighter Equipment 
Board (CSWEB) and the annual Advanced Planning Brief to Industry 
(APBI). The CSWEB is an opportunity for DoD to exchange ideas on future 
improvements of Personal Protective Equipment (PPE). The APBI is an 
opportunity for the Services to present briefings to industry on 
current and future requirements with respect to body armor and other 
PPE and for industry to provide immediate feedback and to ask questions 
on those stated requirements. APBI provides an annual launch point for 
continued collaboration between the Services and industry throughout 
the year to ensure effective and efficient communications and results. 
Another key venue to encourage innovation from the industrial base is 
periodic ``Request for Information'' postings on Federal Business 
Opportunities (FEDBIZOPPS) in support of the Soldier Protection 
Demonstrations (SPD). The SPD provides a setting for the Army and USMC 
requirements community to assess current technology to support the 
development of operational requirements and for vendors to demonstrate 
creative solutions to specific capabilities; such as low profile 
lighter weight body armor plate carrier. The effort will include an 
assessment using Soldiers with previous combat experience conducting 
various activities while wearing the various candidate systems. The 
baseline for comparison will be the current Army Improved Outer 
Tactical Vest (IOTV). The United States Marine Corps (USMC) Scalable 
Plate Carrier will also be assessed. The Army will defer to the USMC on 
their specific programs to evaluate potential body armor solutions. The 
Army has several on-going R&D programs to reduce the weight of body 
armor systems. The focus is to reduce the weight of X-SAPI by 10% in 
the near term (FY10-13) with a long-term goal of 30-40% reduction of 
the entire system by FY 14-15.
    Mr. Abercrombie and Mr. Taylor. What quality control measures are 
used to ensure that all body armor fielded to troops meets 
specifications?
    General Fuller. The Army uses a comprehensive and holistic approach 
to ensure the body armor fielded to Soldiers meets stringent standards. 
The Army conducts multiple levels of continuous testing throughout the 
life cycle of body armor. The first level of continuous testing is the 
rigorous First Article Test (FAT). The second level of testing is Lot 
Acceptance Tests (LAT). LATs are conducted with the same ballistic test 
criteria of the FATs and provide statistical confidence the body armor 
accepted is of the highest quality and will meet the Soldiers' needs 
for protection. The third level of testing is the continuous 
surveillance testing of plates and environmental surveillance of soft 
armor. The Army has a Non-Destructive Test Equipment (NDTE) facility to 
scan plates in Theater and return plates for additional testing. The 
Army conducts ballistic testing on plates with cracks as determined by 
the NDTE. To date 100% of the plates passed testing with the most 
prevalent round. The fourth level of quality control is user inspection 
of the body armor. Additionally, the Army upgraded all body armor 
contracts to surveillance criticality level designator A, which 
requires increased DCMA surveillance. The increased surveillance of 
contractor manufacturing processes is identified in Quality Assurance 
Letters of Instruction (QALIs) for each contract.
    Mr. Abercrombie and Mr. Taylor. Why are the Army and Marine Corps 
procuring different outer tactical vests that provide the same level of 
protection? Please explain why one design would not be appropriate for 
both services.
    General Fuller. The Army and Marine Corps collaborated in the 
development of the Outer Tactical Vest (OTV), which provides the same 
level of protection. However, different mission requirements required 
the Services to field a different OTV. In an effort to reduce weight 
and integrate components that had been fielded during the overseas 
contingency operation to counter emerging threats, the Army developed 
the Improved Outer Tactical Vest (IOTV). The IOTV reduces weight of 
Interceptor Body Armor (IBA) by 3 lbs, increases area of coverage, is 
compatible with other Army Organizational Clothing and Individual 
Equipment (OCIE) and weapons, has a quick release and medical access. 
The Army is in the process of transitioning all OTVs to IOTVs. 
Additionally, the Army is currently evaluating the Marine Corps plate 
carrier to determine if it will meet specific Army mission 
requirements.
    Mr. Abercrombie and Mr. Taylor. Do you consider flame resistance to 
be a key performance specification requirement for combat helmet pad 
suspension systems? If not, why not? Are you seeing any burn injuries 
as a direct result from pad suspension systems igniting?
    General Fuller. Flame resistance (FR) is not a requirement for the 
combat helmet suspension system in the ACH. The complete helmet system 
is inherently flame resistant due to the para aramid fiber (Kevlar/
Twaron) material used in the rigidly constructed helmet shell. The ACH 
protects against ballistic and blast effects; to include flash flame 
incendiary events. The Brooks Army Medical Center, the Defense 
Department's premier burn center with responsibility for treating all 
DoD burn casualties and the Joint Trauma Analysis and Prevention of 
Injury in Combat (JTAPIC) Program Office has no recorded burn injuries 
associated with helmet pads igniting or melting. The Army will continue 
to analyze injury data and seek improvements to helmet pads.
    Mr. Abercrombie and Mr. Taylor. What metrics do you use to evaluate 
and procure pad suspension systems? Do you consider comfort and 
feedback from the warfighter?
    General Fuller. Impact protection is the key metric in the 
selection of a combat helmet pad suspension system. Comfort is also a 
key consideration and warfighter feedback is actively sought. The Army 
proactively pursues Soldier feedback via Web-based surveys, exhibits of 
equipment, post-combat surveys, Army Materiel Command Forward Support 
Brigades, and Logistics Assistance Representatives. Additionally, 
trained and experienced Soldiers are used for Human Factors testing in 
operationally relevant (and controlled) environments to assess the pad 
systems. Soldier acceptance is considered an important criteria to 
determine the best overall performing pad, however the pad system must 
meet or exceed threshold impact resistance requirements.
    Mr. Abercrombie and Mr. Taylor. Where will the Army and Marine 
Corps conduct future body armor testing and how did you select your 
approach?
    General Fuller. The Army plans to conduct all body armor testing at 
a government test facility. The Army Acquisition Executive directed on 
February 9, 2009 that the Army Test and Evaluation Command (ATEC) will 
conduct all Body Armor First Article and Lot Acceptance Testing. The 
Army will defer to the Marine Corps on their testing requirements. If 
the testing requirement exceeds the capacity of ATEC, ATEC will 
contract the work to independent certified testing facilities to 
include the National Institute of Justice.
    Mr. Abercrombie and Mr. Taylor. What is the status of the Army's 
current source selection for next generation and current armor plates? 
When is it expected that new plates will be fielded under the latest 
solicitation?
    General Fuller. Source Selection for the next generation armor 
plates (XSAPI) was completed in 1Q09. Notice of Fair Opportunity to 
Compete for Delivery Orders under Contract W91CRB-09-D-001, -002 and -
003 was issued in March 2009 for Theater contingency stock.
    Mr. Abercrombie and Mr. Taylor. The Army has just issued a return 
order for some 16,000 sets of armor plates as a result of an audit by 
the DOD Inspector General. What were the problems found with this armor 
and were there any adverse impacts on warfighters in the theater due to 
the return? Have any of these or any other armor plate designs shown 
performance problems in the theater? Will any additional testing 
performed on these plates? And if so, what is the status of this 
testing?
    General Fuller. The Army maintains that the armor plates in 
question continue to meet or exceed ballistic requirements. The 
decision to return the 16,000 plates was not the result of any defects 
in the plates. The Secretary of the Army non-concurred with the DoD IG 
findings that the plates in question failed First Article Testing. The 
DOT&E concurred with the Army and concluded in their evaluation, ``the 
DoD Inspector General has identified significant issues with the 
documentation of the test process and analysis (scoring). However, the 
three designs meet the performance specification in place at the time 
of each test.'' Out of an abundance of caution, the Secretary of the 
Army directed; ``To ensure there can be no question concerning the 
effectiveness of every Soldier's body armor, I have ordered that the 
plates at issue be identified and collected until such time as the 
findings by the DoD IG are adjudicated by the Deputy Secretary of 
Defense.'' The Army is collecting the plates in question from Theater 
and is currently performing additional ballistic testing. All the 
plates tested met the Army's ballistic standards. Testing is ongoing.
    Mr. Abercrombie and Mr. Taylor. Do you plan to conduct all body 
armor test and evaluation (to include first article tests and lot 
acceptance tests) at a government laboratory? If yes, why?
    General Fuller. The Army plans to conduct all body armor testing at 
a government test facility. The Army Acquisition Executive directed on 
February 9, 2009 that the Army Test and Evaluation Command (ATEC) will 
conduct all Body Armor First Article and Lot Acceptance Testing.
    A January 29, 2009 Department of Defense Inspector General (DoDIG) 
report on testing requirements for body armor underscored the need for 
internal controls to ensure adequate oversight of the First Article 
Test (FAT) process and proper review and approval of FAT results. The 
DoD Director of Operational Test and Evaluation, who has oversight of 
body armor testing, reiterated this finding, stating that FATs 
conducted at a government facility with government oversight would 
significantly reduce the risk of recurrence of the types of issues 
DoDIG cited in its report.
    The Army policy on Personal Protective Equipment testing adopts 
this recommendation for FAT and extends it to Lot Acceptance Testing 
(LAT). The Army policy is based on the belief that the same benefits of 
conducting testing at a government facility equally apply for both FAT 
and LAT.
    If the testing requirement exceeds the capacity of ATEC, ATEC will 
contract the work to independent certified testing facilities to 
include the National Institute of Justice.
    Mr. Abercrombie and Mr. Taylor. Many force-protection items, such 
as body armor, vehicle armor, and counter-IED equipment have been 
developed by both the Army and Marine Corps to address similar 
requirements. In 2006, GAO reported that a lack of a synchronized 
approach between the Marine Corps and the Army on addressing truck 
armor requirements and solutions resulted in the Marine Corps 
identifying its truck armor requirements and seeking armor solutions 
months after the Army, potentially delaying the availability of armored 
vehicles to deployed Marines. How do the Army and Marine Corps 
coordinate on the development and fielding of force-protection 
solutions that address similar urgent needs requirements of both 
services? How does each of the services ensure that they are preventing 
duplication of efforts and effectively leveraging their scarce 
resources when developing solutions that might address both Army and 
Marine Corps needs?
    General Brogan. The Army and the Marine Corps continue to 
coordinate effectively on the development and fielding of force-
protection solutions. The DoD has established a standard system for 
truck armoring and both the Army and Marine Corps are armoring their 
vehicles to the same level as we converge on armor solutions. As for 
individual personal protective equipment, the Marine Corps coordinates 
closely with PEO Ground Soldier. Both organizations continue to share 
test data with one another in an effort to continually upgrade and 
provide the best protective equipment available to our troops. We share 
all test data and communicate openly with each other. Even when 
specific products are different as in the case of Medium Tactical 
Vehicle Replacement and Improved Modular Tactical Vest, the protection 
levels are the same.
    The Army and the Marine Corps do not believe that duplication of 
effort is counterproductive. There is value in competition and we 
effectively leverage our scarce resources by challenging industry to 
come up with the best and most innovative solutions available today. 
Through these efforts, we ensure that our Services are provided with 
the most sophisticated and reliable equipment on the market today.
    Mr. Abercrombie and Mr. Taylor. What are your primary force 
protection challenges that you will face should we shift forces from 
Iraq to Afghanistan? What does the Army need? What does the Marine 
Corps need?
    General Brogan. There are no unique force protection challenges in 
Afghanistan. However, as we shift forces from Iraq to Afghanistan the 
different terrain, topography and cultural landscape will present 
challenges. Restrictive roads, and mountainous terrain will restrict 
the use of MRAPs. Minimizing the weight of personal protective 
equipment will be more important in the mountainous terrain of 
Afghanistan than in the flat urbanized landscape in Iraq. We are 
developing policies and acquisition practices for our future equipment 
that will make it more modular and scalable to allow us to increase and 
decrease armor protection and its associated weight according to the 
commander's assessment of mission requirements and threat.
    Mr. Abercrombie and Mr. Taylor. Do you consider the X-SAPI 
requirement to be an urgent and compelling need? If not, why?
    General Brogan. [The information referred to is classified and 
retained in the committee files.]
    Mr. Abercrombie and Mr. Taylor. Are you aware of an operational 
need statement, universal urgent need statement or joint urgent 
operational need statement for a next generation body armor plate that 
provides for a higher level of ballistic protection?
    General Brogan. No, the Marine Corps is not aware of an operational 
need statement, universal urgent need statement or joint urgent 
operational need statement for a next generation body armor plate.
    Mr. Abercrombie and Mr. Taylor. Explosively formed projectiles 
(EFPs) are a primary killer on the battlefield. What force protection 
measures and TTPs are we using to defeat this threat? How are we 
staying ahead of this adaptive enemy?
    General Brogan. [The information referred to is classified and 
retained in the committee files.]
    Mr. Abercrombie and Mr. Taylor. How do you encourage the 
development of next generation body armor by the industrial and R&D 
communities and what is the Army and Marine Corps's process for 
evaluating these potential advances? Is this process standardized? What 
is the extent of the R&D effort to reduce the weight of body armor 
systems?
    General Brogan. The load carried by the individual Marine in combat 
is based upon the mission, the enemy threat, and the environment and 
terrain in which they will be operating. The Marine Corps has fielded 
PPE items that enhance our commanders' ability to scale loads to best 
suit the situation. The Marine Corps continues to actively challenge 
industry to design equipment that can perform at least as effectively 
as today's gear but with reduced weight and volume.
    Dialogue with our vendors and potential vendors continues to 
involve discussions about ways to decrease the burden on the individual 
Marine. The Marine Corps uses continuous strategic market research, 
Quarterly Industry Days, and the Small Business Innovation Research 
(SBIR) program to enhance links with industry. We have engaged industry 
at events such as Modern Day Marine Exposition, Executive Workshop, 
Expeditionary Warfare Conference, Navy League Sea, Air & Space 
Exposition, Advanced Planning Brief to Industry, and Acquisition 
Excellence Day. As it relates to body armor, the Marine Corps is 
currently pursuing SBIR efforts in the areas of developing a lighter 
weight Enhanced-SAPI (E-SAPI) plate and the development of an 
objective-weight (same weight as E-SAPI with performance 
characteristics of X-SAPI) X-SAPI plate.
    The Marine Corps is involved with the science and technology 
communities and is funding research efforts designed to yield material 
solutions that can reduce the weight, and volume of equipment being 
used today while also increasing performance. Inclusive in these 
studies are projects being sponsored under the Department of Defense's 
Small Business Innovative Research (SBIR) program, as well as Marine 
Corps funded projects through the Naval Research Labs (NRL), and the 
Office of Naval Research (ONR).
    Mr. Abercrombie and Mr. Taylor. What quality control measures are 
used to ensure that all body armor fielded to troops meets 
specifications?
    General Brogan. Our body armor test protocols are constantly 
evaluated to ensure that they thoroughly and properly test the plates 
in all potential operational environments. The Marine Corps uses 
International Organization for Standardization (ISO) 9000 family 
vendors that make use of best industry practices to maintain optimal 
quality control. Ballistic performance of the armor is initially 
verified by First Article Testing (FAT) and is complemented by Lot 
Acceptance Testing (LAT) of a pre-determined quantity of random samples 
gathered by the Defense Contract Management Agency (DCMA). The PPE that 
is issued by the Marine Corps has met government test standards by 
National Institutes of Justice certified labs.
    Mr. Abercrombie and Mr. Taylor. Why are the Army and Marine Corps 
procuring different outer tactical vests that provide the same level of 
protection? Please explain why one design would not be appropriate for 
both services.
    General Brogan. The physical dimensions, missions, and operational 
approach of the two services differ, therefore, the desired form, fit, 
and function of the soft armor carriers are developed by each service 
to satisfy these dissimilar needs. Body armor requirements are based on 
protection from ballistic projectiles, blast, and fire, balanced 
against the need to keep the equipment light enough to permit Marines 
to carry out their missions. The Marine Corps incorporates the feedback 
of its user community on the desired attributes and features that they 
would like to see included in the design of body armor.
    The Commandant of the Marine Corps (CMC) has approved the way ahead 
for the next generation vest, including the parallel development of 
improvements to the MTV and SPC as a bridge to development of the next 
generation vest. The objective of the next generation vest will be to 
incorporate all of the modular and scalable aspects of the ``improved'' 
MTV and ``improved'' SPC into one ``Joint'' vest. The Marine Corps is 
committed to the development of the Next generation vest in close 
coordination with the Army and the other Armed Services.
    Mr. Abercrombie and Mr. Taylor. Do you consider flame resistance to 
be a key performance specification requirement for combat helmet pad 
suspension systems? If not, why not? Are you seeing any burn injuries 
as a direct result from pad suspension systems igniting?
    General Brogan. No, flame resistance is not a key performance 
specification requirement for combat helmet pad suspension systems. The 
USMC Lightweight Helmet (LWH) is composed of a para-aramid fiber that 
exhibits natural flame resistance properties, and protects against 
ballistic threats and flash flame incendiary events. Any flame in 
contact with a pad long enough to ignite would have already seriously 
injured the individual wearing the helmet.
    The Brooks Army Medical Center, the Department of Defense's burn 
center responsible for treating all DOD burn casualties, has no record 
of burn injuries associated with helmet pads igniting or melting. The 
Naval Health Research Center reports that out of 192 burn patients, 
there are no injuries associated with helmet pads melting or dripping.
    Mr. Abercrombie and Mr. Taylor. What metrics do you use to evaluate 
and procure pad suspension systems? Do you consider comfort and 
feedback from the warfighter?
    General Brogan. Blunt Impact: Blunt impact testing was performed in 
2006 by the US Army Aeromedical Research Laboratory, with oversight 
from the Office of the Secretary of Defense, Director of Test and 
Evaluation (DOT&E). This helmet pad testing evaluated the performance 
of the helmet padding material (in ambient, cold and hot temperatures) 
by impacting the helmet in different locations and tested impact 
attenuation of the material in large and small contact areas. The 
testing methodology was chosen to compare the test results across the 
previously fielded suspension systems.
    Flame Resistance: The USMC Lightweight Helmet (LWH) is composed of 
a para-aramid fiber that exhibits natural flame resistance properties, 
and protects against ballistic threats and flash flame incendiary 
events. The flame resistance of the helmet is tested as part of a 
modified FED-STD-191 test method 5903.1 and the Marine Corps tests the 
helmet pads as part of a system within the USMC Lightweight Helmet and 
other associated gear. The helmet pad flame resistance testing was 
performed according to the Pyroman test method, a commercial standard 
which simulates flash fires of up to 4 seconds in duration, and 
correlates to a Burn Injury Prediction (BIP) scale, similar to what 
occurs in an IED event.
    Comfort: The Marine Corps completed three user surveys on the LWH 
in 2007. A Limited User Evaluation (LUE) was performed assessing the 
fit, form, and function of the helmet pads in 2008.
    Mr. Abercrombie and Mr. Taylor. Where will the Army and Marine 
Corps conduct future body armor testing and how did you select your 
approach?
    General Brogan. The Marine Corps looks forward to fully 
participating in the DOT&E's Integrated Process Team for the 
development of standard protocols and processes for the testing of body 
armor. In the interim, the Marine Corps' approach to body armor testing 
will continue to rely upon government-approved independent test labs, 
with periodic inspections, to test its body armor. First Article 
Testing will be conducted at government owned labs and Lot Acceptance 
Testing will be permitted at National Institutes of Justice certified 
labs with appropriate government on-site for oversight testing. When 
the revised standard protocols and processes are implemented, the 
Marine Corps envisions using a combination of government-owned and 
government-approved independent lab facilities to conduct future body 
armor testing.
    Mr. Abercrombie and Mr. Taylor. If modifying MRAP design proves to 
be a significant mitigating factor in MRAP rollovers, is it possible to 
modify the thousands of deployed MRAPs and those already manufactured 
and in the MRAP pipeline? If these MRAPs can be modified, what are the 
associated funding issues?
    General Brogan. If there are modifications that can mitigate 
rollovers, we are capable of making them in theater. We do not have to 
transport vehicles back to the United States.
    It is unlikely that a design modification is going to significantly 
affect rollover - this is a high center of gravity vehicle. Of the 116 
rollovers recorded during the (17 month) period, 72 were attributed to 
the road failing, (e.g. poor infrastructure). Twenty-two were due to 
driver maneuverability, which is best addressed in the training 
pipeline. The better trained the driver, the less likely they are to 
conduct a maneuver that will hazard the vehicle.
    The JPO currently has some funding in hand and some included in 
future budget requests to procure and install various modifications 
into MRAP vehicles. If a modification is designed or becomes available 
to prevent vehicle rollovers, we will either realign on-hand/requested 
funds or seek additional funds.
    Mr. Abercrombie and Mr. Taylor. DOD is currently ``catching up'' in 
terms of acquiring and stockpiling MRAP repair parts. Is this shortage 
a function of funding, the ability of the respective MRAP manufacturers 
to produce sufficient stocks of repair parts, of programmatic 
priorities, or a combination of factors?
    General Brogan. We are no longer catching up; repair parts 
generally available. We have effectively balanced production and 
sustainment. We have maintained higher than 90 percent operational 
readiness availability while producing vehicles and building operating 
stocks.
    In a little over a year, the Program began provisioning vehicles 
from five different manufacturers. We based our initial Stockage levels 
on our limited experience with route-clearance vehicles, and used 
analogies from heavy trucks and Stryker. We also learned the specifics 
of our MRAP fleet and determined which parts were going to become high 
demand and needed to be stocked. Overall, we have been effective in our 
parts supply and resupply efforts and have maintained the vehicles so 
they are operational and available to the user.
    Mr. Abercrombie and Mr. Taylor. DOTE has recommended ``the MRAP JPO 
in conjunction with the Army Test and Evaluation Command conduct a 
detailed operational assessment of all variants of MRAP vehicles based 
upon data gathered from deployed MRAP-equipped units. This operational 
assessment would provide information for further vehicle 
improvements.'' Do you plan to implement this recommendation from DOTE? 
If not, why not?
    General Brogan. JPO MRAP is gathering data from forces in theater. 
There are at least five formal operational unit feedback mechanisms in 
place for capturing what the warfighter states as their requirement for 
MRAP capability improvements: the deployment of JPO Forward personnel, 
a Joint User Working Group-Monthly meeting of all Services and SOCOM 
representatives, user surveys conducted by deployed personnel from the 
testing community, weekly video teleconferences to review current 
issues, and user conferences. Some engineering change proposals are the 
result of field feedback, and the MRAP Operations Cell has developed a 
process that requests all information required for appropriate 
analysis. As a result, capability improvements to both safety and 
survivability include a gunner's restraint system, fuel tank fire 
suppression, and overhead wire mitigation kits.
    Mr. Abercrombie and Mr. Taylor. What is the difference between the 
M-ATV and Joint Light Tactical Vehicle (JLTV)?
    General Brogan. M-ATV is designed to meet an urgent near term need. 
It is not a development effort. The JLTV is designed to meet a critical 
long term need, and with the concomitant insight and influence on life 
cycle cost and effectiveness within the future force available through 
the CJCSI 3170/DOD 5000 paired processes. A major difference between 
the two vehicles is weight. An M-ATV weighs approximately 25,000 
pounds, whereas a JLTV is expected to weigh about 13,500 pounds. The 
JLTV is needed to preserve the MAGTF's expeditionary nature. Therefore, 
JLTV sets rotary wing transport as a boundary condition of the system, 
whereas M-ATV does not. The JLTV is also intended to have modular 
scalable survivability. As the threat increases, additional protection 
in the form of kits may be added to the vehicle.
    Mr. Abercrombie and Mr. Taylor. Are there sufficient contractors in 
Iraq and Afghanistan to support the ever-growing MRAP fleets?
    General Brogan. Yes, there are currently sufficient Field Support 
Representatives (FSRs) in Iraq and Afghanistan to support the MRAP 
fleet. We are adding additional FSRs as the fleet grows.
    Mr. Abercrombie and Mr. Taylor. When do you plan to transition the 
life-cycle management of MRAP vehicles from the Marine Corps to the 
Army?
    General Brogan. The transition will be event driven. The agreement 
between the two Service Acquisition Executives is that we will begin 
the transition when production and fielding are complete. Since we are 
yet to begin producing M-ATV vehicles, transition is far in the future.
    Mr. Abercrombie and Mr. Taylor. How many M-ATVs do you expect to 
procure? Will the M-ATV program have the same priority rating as the 
MRAP vehicle program? If not? Why not?
    General Brogan. The approved Joint Urgent Operation Needs Statement 
(JUONS) is for 2,080 vehicles. We will also have to procure some 
overhead vehicles for testing, but we currently plan to field 2,080 
vehicles to Commander, Joint Task Force 101. They will be used to 
compliment the other tactical vehicles that are already in the theater 
of operations. Yes, the M-ATV will be produced and fielded using the DX 
rating and an Urgent Material Release (UMR).
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. BARTLETT
    Mr. Bartlett. Describe the Army's program of record for a counter 
sniper system to include the funding profile, schedule, and acquisition 
strategy.
    General Lennox. The Army currently does not have a program of 
record for a counter sniper system. However, of the two potential 
acquisition programs that are related to ongoing sniper defeat 
initiatives, the following is the status:
    The Gunshot Detection System (GSD) vehicle borne system:
    The GSD requirement document was approved by HQDA on 13 Feb 09 and 
HQDA G3 issued the requirement document CARDS number 02077. The program 
will compete for funding in the FY12-17 Program Objective Memorandum 
(POM). Should the GSD program be funded, the Army plans to conduct a 
full and open competition to identify the best materiel solution to 
procure. As far as the urgency based procurement of vehicle borne 
gunshot detection systems is concerned, the Army has fielded 607 
Boomerang III Gunshot Detection Systems in Iraq/Afghanistan to date and 
plans to field over 2000 more systems throughout the year.
    The Individual Gunshot Detector (IGD) soldier worn system:
    The IGD requirement document is currently being staffed at the Army 
Requirements Oversight Council for approval. The Rapid Equipping Force 
(REF), Asymmetric Warfare Group (AWG), and Army Test and Evaluation 
Command (ATEC) are conducting an evaluation in OEF and OIF on an IGD 
representative system called the Soldier Wearable Acoustic Targeting 
System (SWATS). The test report is expected by early April 2009 and 
will be used to inform Army decision makers regarding the approval of 
the IGD requirement. Should the requirement be approved, the program 
will compete for funding in the FY12-17 POM. If the program is funded, 
the Army plans to conduct a full and open competition to identify the 
best materiel solution. To date, the REF has fielded over 1000 SWATS to 
units in Iraq/Afghanistan that have requested individual gunshot 
detection capability.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WILSON
    Mr. Wilson. General, the Center for Naval Analysis conducted a 
survey on small arms for the Army in 2006. This survey questioned 
Soldiers recently returned from combat who had used their weapon to 
engage the enemy. The study found for example that 38% of the Soldiers 
who experienced a stoppage with the M9 reported an inability to engage 
the enemy with the weapon even after performing immediate action to 
clear the stoppage during a significant portion of or all of the 
firefight. I also note that Special Operations Command is replacing 
their M4 rifles with a new weapon. Given the level of dissatisfaction 
with small arms found by the Center for Naval Analysis is the Army 
doing anything to generate a new requirement for a pistol or rifle?
    General Lennox. Mr. Wilson, in the same Center for Naval Analysis 
(CNA) study you cited, approximately 90% of the Soldiers surveyed were 
satisfied with the performance of the M4 Carbine. Additionally, in 
another recent survey of 917 Soldiers with recent combat experience 
with the M4 in Iraq or Afghanistan, 89% of Soldiers reported overall 
satisfaction with the M4 and only 1% of these Soldiers recommended that 
the M4 be replaced. Although the weapons are performing well, the Army 
continually seeks ways to improve their performance as well as provide 
Soldiers with enhanced capabilities. To that purpose we conducted an 
Industry Technology Day on November 13th that was designed to gather 
information from our industry partners as to what is achievable in 
terms of small arms technology. This is an important step in the effort 
to ensure that our Soldiers always have the best industry has to offer. 
The Individual Carbine Capabilities Development Document (CDD) is 
currently in the staffing and approval process. The goal for the CDD to 
complete all staffing is September 2009. As directed by Secretary 
Geren, we plan to conduct a full and open competition utilizing the new 
requirement beginning in late 2009. We will look at the industry's best 
innovations and proposed solutions for a possible new individual 
weapon.
    For the handgun, the 38% you refer to is actually a percentage of 
another percentage which translates to \1/2\% of the Soldiers surveyed. 
That said, the Army's Small Arms Capability Based Assessment (CBA) 
confirmed the shortfall in the area of the personal defense weapon, and 
the Army has prioritized the development of a sub-compact or 
``miniature carbine'' capability ahead of the pistol at this time. 
However, currently the Army plans to wait until the completion of the 
carbine competition to see what industry provides as solutions to 
better inform the writing of a sub-compact requirement. The Air Force 
(AF) has completed a new joint requirement for a handgun that can be 
adopted by any service. The Army is looking closely at adopting this 
requirement in the near future. The AF wrote the Modular Handgun System 
(MHS) Capabilities Production Document (CPD) with significant input 
from the Army and joint participation from all services.
    Mr. Wilson. Is the Army and Marine Corps working to equip every 
military vehicle, including light, medium and heavy tactical vehicles, 
with fuel tank fire suppression kits?
    General Lennox. No. The vehicles most vulnerable to fuel tank fire 
hazards have been those with external side saddle fuel tanks: the Army 
Line Haul tractors, Heavy Equipment Transport (HET) tractors, Heavy 
Expanded Mobility Tactical Truck (HEMTT) and the Marine Corps Medium 
Tactical Vehicle Replacement Vehicle (MTVR). In Iraq insurgents have 
specifically targeted these side saddle tanks during IED attacks. Only 
vehicles destined for, or in, Theater are equipped with a Fire 
Suppression Kit (FSK); either a Kevlar ``quilt'' made of 6-inch 
stitched pouches of fire suppression powder or a molded, hollow plastic 
shell filled with fire suppression powder, wrapped around the saddle 
tanks. When activated by an IED event, the powder disperses in the shot 
line and the surrounding area suppressing the fire. Pooling fuel that 
comes in contact with the powder becomes inert, reducing the likelihood 
of secondary fires caused by penetrated fuel lines or secondary 
ignition.
    The Army has a validated ONS, and is equipping all armored Line 
Haul, HETS tractor, and HEMTT vehicles in Theater with FSKs. The Marine 
Corps plans to equip every MTVR with fuel tank protection kits, with 
initial priority on armored vehicles. All MTVRs in theater have been 
retrofitted with fuel tank protection kits. The USMC is looking at 
adapting the MTVR (Firetrace) fuel tank protection kit to Logistics 
Vehicle System Replacement, but there is no current requirement to add 
these kits to the vehicles.
    Mr. Wilson. Is fuel tank fire suppression viewed differently 
depending on the category of vehicle?
    General Lennox. Yes, the Doctrine, Organization, Training, 
Materiel, Leadership and Education, Personnel and Facility (DOTMLPF) 
analysis for Tactical Wheeled Vehicle Fires completed in April 2008 
concluded that no one solution will fill the capability gap to prevent 
and then quickly eliminate/extinguish vehicle fires. Solutions are 
dependent on vehicle type, age, design and specific mission. First 
priority is crew safety, survivability, escape and rescue. Second 
priority is to minimize vehicle and cargo damage.
    Many vehicles in theater (included all Tactical Vehicles) are 
equipped with portable, vehicle-mounted and back-pack foam systems as 
Basic Issue Items. Stryker systems have integrated a foam distribution 
system into the design of the vehicle, focusing on extinguishing tire 
fires. Foam agents are one effective solution for extinguishing 
petroleum based fires in tactical vehicles. Automatic foam systems, 
however, may not be possible in every tactical vehicle because of 
design strictures, integration structures, crew areas. Some MRAP 
vehicles also employ dry powder fuel zone fire suppression systems 
which can be manually or are automatically activated.
    Saddle tank, dry-powder Fire Suppression Panels or Kevlar quilts 
are very effective for external fuel tanks on tactical trucks. These 
solutions have been installed on HEMTT, HET, Line Haul and MTVR 
vehicles in theater. M978, HEMTT, 2,500 gallon Fuel Tankers also have 
additional protection that incorporate Fuel Tank Self-Sealing spray, 
which closes small-arms and splinter punctures in the fuel tanks thus 
mitigating fire hazards from fuel leaks, and armor grade steel over 
hoses and pumping components to protect critical equipment from small 
arms fire and IED fragments.
    Mr. Wilson. When does the Army expect to have the MRAP home station 
training requirement at 100%?
    General Lennox. The Army has identified that a total of 702 MRAP 
vehicles are currently needed to support pre-deployment training. The 
Army expects to have that many vehicles at approximately twenty 
different training locations by the end of December 2009. There are 
already 26 vehicles supporting training in the United States, and 
another 25 have been identified in Kuwait for shipment back to support 
training by April 2009. As the Army receives the newest and most 
capable MRAP vehicles in theater, older and less capable vehicles are 
being replaced and returned for use in training Soldiers before they 
deploy. The Army will adjust the schedule for the return of these older 
vehicles based on a number of factors, including how much maintenance 
is required on the vehicles before they are shipped, and when shipping 
is available. Changes in the operational situation could also cause the 
Army to adjust the schedule or numbers.
                                 ______
                                 
                 QUESTION SUBMITTED BY MS. SHEA-PORTER
    Ms. Shea-Porter. General, the Center for Naval Analysis conducted a 
survey on small arms for the Army in 2006. This survey questioned 
Soldiers recently returned from combat who had used their weapon to 
engage the enemy. The study found for example that 38% of the Soldiers 
who experienced a stoppage with the M9 reported an inability to engage 
the enemy with the weapon even after performing immediate action to 
clear the stoppage during a significant portion of or all of the 
firefight. I also note that Special Operations Command is replacing 
their M4 rifles with a new weapon. Given the level of dissatisfaction 
with small arms found by the Center for Naval Analysis can you tell us 
why the Army has not been able to generate a new requirement for a 
pistol or rifle?
    General Lennox. Ms. Shea-Porter, in the same Center for Naval 
Analysis (CNA) study you cited, approximately 90% of the Soldiers 
surveyed were satisfied with the performance of the M4 Carbine. 
Additionally, in another recent survey of 917 Soldiers with recent 
combat experience with the M4 in Iraq or Afghanistan, 89% of Soldiers 
reported overall satisfaction with the M4 and only 1% of these Soldiers 
recommended that the M4 be replaced. Although the weapons are 
performing well, the Army continually seeks ways to improve their 
performance as well as provide Soldiers with enhanced capabilities. To 
that purpose we conducted an Industry Technology Day on November 13th 
that was designed to gather information from our industry partners as 
to what is achievable in terms of small arms technology. This is an 
important step in the effort to ensure that our Soldiers always have 
the best industry has to offer. The Individual Carbine Capabilities 
Development Document (CDD) is currently in the staffing and approval 
process. The goal for the CDD to complete all staffing is September 
2009. As directed by Secretary Geren, we plan to conduct a full and 
open competition utilizing the new requirement beginning in late 2009. 
We will look at the industry's best innovations and proposed solutions 
for a possible new individual weapon.
    For the handgun, the 38% you refer to is actually a percentage of 
another percentage which translates to \1/2\% of the Soldiers surveyed. 
That said, the Army's Small Arms Capability Based Assessment (CBA) 
confirmed the shortfall in the area of the personal defense weapon, and 
the Army has prioritized the development of a sub-compact or 
``miniature carbine'' capability ahead of the pistol at this time. 
However, currently the Army plans to wait until the completion of the 
carbine competition to see what industry provides as solutions to 
better inform the writing of a sub-compact requirement. The Air Force 
(AF) has completed a new joint requirement for a handgun that can be 
adopted by any service. The Army is looking closely at adopting this 
requirement in the near future. The AF wrote the Modular Handgun System 
(MHS) Capabilities Production Document (CPD) with significant input 
from the Army and joint participation from all services.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. GIFFORDS
    Ms. Giffords. Given the weight of individual body armor systems and 
associated equipment, what is being done to treat muscular or skeletal 
injuries associated with carrying these loads for extended periods?
    General Lennox. Soldiers complain of pain in the spine (neck, mid, 
and lower back), shoulders, and lower extremities after wearing the 
gear for an extended period of time. One study queried the Soldiers who 
had these complaints and found that those who wore the gear for four 
hours or longer had more complaints than those wearing the gear for 
shorter periods. The immediate treatment is to allow for frequent 
periods of ``unloading'' or taking the gear off if it is safe to do so. 
The Army recognizes physical therapists (PTs) as the primary care 
providers for prevention, identification, treatment, and rehabilitation 
of musculoskeletal injuries. These PTs use a sports medicine approach 
to identify, treat, and rehabilitate musculoskeletal injuries 
expeditiously which is critical in a wartime environment as Soldiers 
are able to stay healthy and ``in the fight''. Treatments for Soldiers 
with musculoskeletal injuries include joint manipulation, specific 
therapeutic exercises, soft tissue manipulation as well as a variety of 
modalities to mitigate pain, promote healing, and prevent reoccurrence. 
PTs also assist Commanders with unit exercise programs that strengthen 
the shoulders, lower extremities, and muscles surrounding the spine in 
order to prevent injuries from occurring when wearing the gear. 
Programs focusing on injury prevention and performance enhancement 
emphasize core strengthening, plyometrics (used to train explosiveness 
and power in muscles i.e., jumping on/off boxes of varying heights 
simulates jumping on/off vehicles in combat), and cardiorespiratory 
endurance. The programs also emphasize muscular strength, muscular 
endurance (anaerobic endurance), power, and movement proficiency 
(incorporates balance, flexibility, coordination, speed, and agility) 
to better prepare Soldiers to physically withstand the rigors of 
combat. In conclusion, by making sure Soldiers receive early 
identification and treatment of their musculoskeletal injuries and 
improving Soldiers' physical strength and conditioning, we also improve 
the overall medical readiness of our Force.
    Ms. Giffords. What changes have you made to your fitness and 
nutrition programs to better train servicemembers for carrying their 
current combat loads? Are your current fitness tests and weight 
standards sufficient? What type of fitness trainers do you have at 
company and battalion levels to train your servicemembers for the 
rigors of combat?
    General Lennox. The Army Physical Fitness School at Fort Jackson, 
South Carolina has researched our physical fitness doctrine and found 
our current model that emphasizes aerobic and muscular endurance does 
not correlate well with the physical fitness requirements of current 
combat operations. To fill this gap, the Physical Fitness School 
drafted a new doctrine called Army Physical Readiness Training (Field 
Manual 3-22.20) that aligns with our current operations and training 
doctrine. Army Physical Readiness Training focuses on improving 
Soldiers' aerobic endurance, muscular strength, muscular endurance 
(anaerobic endurance), power, and movement proficiency which physically 
prepares Soldiers and units to meet the physical demands of full 
spectrum operations. As this new doctrine is inculcated throughout the 
Army, we will adjust our physical fitness test to reflect this change. 
In the meantime, units across the Army, with the assistance of subject 
matter experts, have adopted a variety of injury prevention and 
performance enhancement programs. For example, Special Forces and 
several Brigade Combat Teams have implemented programs that, in 
addition to traditional aerobic exercise, emphasize core strengthening, 
short term bursts of power, and speed and agility drills. Army training 
policy continues to highlight that commanders are the primary training 
managers and trainers for their organization. Although the Army no 
longer designates a unit fitness trainer, unit commanders delegate 
authority to non-commissioned officers (NCOs) as the primary trainers 
of enlisted Soldiers, crews, and small teams. This new doctrine 
designates the NCOs as the primary trainers for Physical Readiness 
Training in units.
    With regard to nutrition, the US Army Research Institute of 
Environmental Medicine has developed a new, light-weight, small volume 
ration that can be eaten on-the-move without any preparation. Their 
Military Nutrition Division worked with the ration developer to define 
the optimal amounts of different nutrients needed to sustain physical 
performance and prevent excess loss of lean mass during extended combat 
missions. The result of this collaborative effort is the 
``Nutritionally Optimized'' First Strike Ration that is currently 
available for use in Theater.
    Finally, the Army considers our weight standards as outlined in 
Army Weight Program policy (Army Regulation 600-9, 27 November 2006) to 
be sufficient. The weight table and measurement techniques outlined in 
this regulation were carefully evaluated by the US Army Research 
Institute for Environmental Medicine and a team of nutritionists, 
healthcare professionals and fitness experts.
    Ms. Giffords. The MRAPs that we have rushed to the field in Iraq 
are too large and too heavy for Afghanistan and are not ideal for 
domestic missions at the National Guard level. What will be done with 
MRAPs once our forces leave Iraq?
    General Lennox. The Army is committed to keeping MRAP in the Force 
Structure. There are plans to integrate up to 1,400 MRAP into Explosive 
Ordnance Disposal and Route Clearance organizations. Additionally, the 
Army is exploring the operational feasibility of placing them in other 
organizations, including Sustainment Brigades, Maneuver Enhancement 
Brigades, Army Prepositioned Stocks and Training Sets.
    Ms. Giffords. What plans are in place or being developed to 
transition our Up-Armored Humvees back to the United States or directly 
to Afghanistan as forces drawdown in Iraq?
    General Lennox. The Army's current validated Theater operational 
requirement for UAH is 19,645. This requirement is currently being re-
evaluated based on possible reductions of forces in Iraq and the 
pending force structure decisions for Afghanistan. The Army will not be 
able to finalize its requirements until these decisions are made.
    As requirements in Iraq are reduced, Theater will fill all 
requirements in Afghanistan first, and then begin moving UAH back to 
the United States to fill MTOE requirements and training sets, thereby 
supporting readiness for future operations.
    Ms. Giffords. Given the substantially improved survivability of 
MRAP-like vehicles and the potential for future enemies to utilize 
similar asymmetric means, how are you incorporating successes of these 
vehicle designs into FCS?
    General Lennox. Operational feedback and lessons learned inform our 
design process. While FCS Manned Ground Vehicles (MGV) are designed to 
provide protection against a broader range of direct-fire threats than 
MRAP-like vehicles, the FCS program is exploring concepts for 
protecting MGVs based on the same principles that enable MRAP-like 
vehicles to protect our Soldiers against Improvised Explosive Devices 
(IED). FCS is assessing the feasibility of incorporating principles 
such as increased ground clearance to reduce the effects of evolving 
threats. Other exploratory efforts include potentially developing a 
Mine Kit similar to the MRAP-like ``V''-shaped hull.
    FCS MGVs will use advanced armor technologies to achieve 
significant ballistic protection for hemispherical and under-vehicle 
threats. Lightweight, ceramic-based composites provide performance 
protection up to medium caliber for hemispherical threats. Additional 
under-vehicle protection is gained through an anti-tank (AT) mine kit 
that provides significant capability against AT mines.
    FCS MGVs are designed to accept future upgrades of ballistic armor 
to take advantage of increased performance at lower weights. The common 
modular approach to all MGV designs allows for easy removal and 
replacement of the armor skin as future armor technologies evolve to 
meet the changing threat. The Army, through the Army Research and 
Development Command (RDECOM), continues to develop, mature and provide 
improved armor solutions to the FCS program that not only provide 
increased performance but will continue to target reducing weight.
    Ms. Giffords. Are the Army and Marine Corps closely coordinating 
efforts to design future combat vehicles? If not, why not?
    General Lennox. Yes, the Program Executive Officer Land Systems 
(PEO LS) USMC is working closely with the Army on two future combat 
vehicle programs - Joint Light Tactical Vehicle (JLTV) and Marine 
Personnel Carrier (MPC). With respect to JLTV, the U.S. Army is the 
lead service with a Joint Program Office at TACOM (Michigan) under the 
leadership of the Program Executive Office for Combat Support/Combat 
Service Support (PEO CSS) and has an additional Program Office under 
the leadership of the PEO LS USMC at Quantico, Virginia. The MPC 
Program Office is pursuing a joint effort with the Army to include 
Stryker in the revised MPC Analysis of Alternatives (AoA).
    Due to the cancellation of the Marine Air-Ground Task Force (MAGTF) 
Expeditionary Family of Fighting Vehicles (MEFFV) program and the 
decision(s) to continue use of USMC Tanks and Light Armored Vehicles 
(LAVs) for the foreseeable future, the Marine Corps is no longer an 
active participant in the Army's FCS MGV development program. However, 
the Marine Corps continues to closely monitor the FCS program. Recent 
areas of focus include MGV armor capabilities geared toward IED 
mitigation/survivability for the Expeditionary Fighting Vehicle (EFV) 
and the Active Protection System for use in the USMC LAV and EFV. USMC 
coordinates future vehicle S&T with the Army RDECOM and Office of Naval 
Research (ONR). PEO LS has also established a Marine Corps Integration 
Capability Cell with the Army's FCS program at Fort Bliss, Texas.
    Ms. Giffords. Given that we entered this war with little to no 
armored vehicles for our servicemembers who perform vital support and 
logistics functions, what are your plans for hardening future logistics 
and combat support vehicles?
    General Lennox. TRADOC and PEO CS&CSS developed the Long Term Armor 
Strategy (LTAS) that was approved by the Army Requirements and 
Resourcing Board (AR2B) to enhance current Tactical Vehicle Platforms 
with an integrated armor capability through an A-cab, B-kit format. 
This concept allows peacetime operation in a lighter A-cab solution, 
with a capability to rapidly apply armor protection (B-kit) when 
required. To date, PM Tactical Vehicles has integrated this capability 
in the Up-armored HMMWV (UAH), Family of Medium Tactical Vehicles 
(FMTV) and Heavy Expanded Mobility Tactical Truck (HEMTT). The PM is 
currently developing solutions for the Palletized Loading System (PLS), 
Line Haul Tractor and Heavy Equipment Transporter.
    TRADOC is currently developing the Long Term Protection Strategy 
(LTPS) for Tactical Vehicles which includes updating the Army's LTAS. 
The objective of the LTPS is to enhance the survivability of TWV 
occupants by synchronizing a variety of complementary Force protection 
and Survivability initiatives in support of current operations, Army 
Transformation and future modernization capabilities by optimizing 
strategies for procurement, deployment, recapitalization and 
sustainment. This strategy will provide recommended quantities of B-
kits that should be maintained to ensure the Army has sufficient armor 
capabilities on-hand to support Tactical Vehicles deployment.
    Ms. Giffords. What help does the Army need to expedite the update 
of the Counter-IED Jamming systems in theater?
    General Lennox. The Army is executing a strategy to keep their 
current fleet of jammers relevant to meet a constantly evolving threat. 
The current upgrade is the Duke V3. It is the most advanced Counter 
Remote Improvised Explosive Device Electronic Warfare (CREW) system 
available and provides increased protection against current threats and 
is software programmable to defeat future threats. Continued 
Congressional support for Counter-IED funding will allow the Army to 
adequately meet the OIF requirement and lean forward in supporting OEF. 
For the future, the Army will invest in long term Electronic Warfare 
capability that incorporates the counter IED (CREW) mission as a subset 
of a much more comprehensive and integrated Electronic Warfare system 
addressing the totality of Army Electronic Warfare requirements.
    Ms. Giffords. Given the weight of individual body armor systems and 
associated equipment, what is being done to treat muscular or skeletal 
injuries associated with carrying these loads for extended periods?
    General Brogan. The Marine Corps has not experienced a significant 
increase in musculoskeletal injuries. The average tour length for 
Marines deployed to a combat zone is seven months, versus the Army's 
average tour length of 12-15 months. Our units form prior to beginning 
the Pre-Deployment Training Program (PTP). With very few exceptions, 
the entire unit completes PTP together. During PTP the Marines are 
conditioned, hardened and prepared for the rigors of the combat 
environment. Combined with our culture of high physical conditioning, 
we are not experiencing a significant increase in musculoskeletal 
injuries.
    Hospital Corpsmen attached to Marine units provide the first 
echelon of care for an injured Marine. Corpsmen are trained to rapidly 
respond and treat front-line casualties, and the treatment and 
management of musculoskeletal injuries makes up a large portion of 
their curriculum.
    Ms. Giffords. What changes have you made to your fitness and 
nutrition programs to better train servicemembers for carrying their 
current combat loads? Are your current fitness tests and weight 
standards sufficient? What type of fitness trainers do you have at 
company and battalion levels to train your servicemembers for the 
rigors of combat?
    General Brogan. A comprehensive review of USMC fitness programs 
began in Nov 2006. Key outputs of this review resulted in the following 
changes to Physical Training (PT) programs in Entry Level Training 
(ELT) and in guidelines for commanders in designing unit PT programs: 
Greater emphasis on anaerobic (short burst) capacity, de-emphasis of 
long distance running, increase in body movement skills (agility) and 
increase in progressive load bearing capacity. These changes are 
reflected in PT application, testing, and also in education of Marine 
leaders in the Training and Education continuum. Nutrition education 
begins in boot camp conducted by Semper Fit and continues in the T&E 
continuum as well.
    Pre-deployment physical training is sufficient to meet the demands 
of combat. Improvements to fitness programs have enhanced the already 
high physical fitness readiness of Marines.
    In May 2008, the Command of the Marine Corps (CMC) approved the 
Combat Fitness Test (CFT) which was implemented in Oct 2008. Designed 
to be a complement to the semi-annual Physical Fitness Test (PFT), CFT 
events are: Movement to Contact (880 yd run), Ammo Lift (repetitive 
overhead lift of a 30 lb ammo can for two minutes), and Maneuver Under 
Fire. The last event is a 300 yard shuttle run which includes sprints, 
numerous changes of direction, a fireman's carry, buddy drag, ammo can 
carries and a simulated grenade throw. The CFT has helped shape USMC 
fitness programs, which will serve to enhance combat-related 
conditioning.
    USMC Height/Weight standards are in accordance with DoD guidelines. 
Maximum body fat allowances graduate slightly by age and are the lowest 
within DoD guidelines.
    There are no dedicated fitness trainers at the company and 
battalion levels. However, the Marine Corps has recently implemented a 
Combat Conditioning Specialist (CCS) program to assist commanders in 
designing and implementing their unit PT programs. Included in the CCS 
curriculum are classes on basic exercise physiology, injury prevention, 
etc. and contemporary strength and conditioning methods. In addition, 
commander's also have access to Semper Fit personal trainers at major 
bases who also provide detailed expertise in designing effective PT 
programs.
    Ms. Giffords. The MRAPs that we have rushed to the field in Iraq 
are too large and too heavy for Afghanistan. What will be done with 
MRAPs once our forces leave Iraq?
    General Brogan. There are more than 1,800 MRAP vehicles in 
Afghanistan, at the request of operational commanders. Certain 
variants, such as the RG-31 MaxxPro Dash and Cougar variant have 
performed well. As the focus shifted from Iraq to Afghanistan, the 
Joint Program Office has procured more than 2,000 vehicles to meet 
theater-specific requirements in Operation Enduring Freedom (OEF).
    Speaking only for the Marine Corps, a portion of the fleet will go 
to operational forces: route clearing teams, explosive ordnance 
disposal (EOD) teams, and combat engineering organizations; a portion 
will go to geographic pre-positioning, and a portion will likely be 
made available for our maritime pre-positioning force. Currently, the 
Marine Corps does not intend to leave vehicles in Iraq.
    Ms. Giffords. What plans are in place or being developed to 
transition our Up-Armored Humvees back to the United States or directly 
to Afghanistan as forces drawdown in Iraq?
    General Brogan. Transition of up armored HMMWVs back to CONUS will 
depend upon the state of the individual vehicle and will be made on a 
case-by-case basis prior to re-embarkation. Equipment determined to be 
cost-effective to repair will be returned to CONUS and reset at 
government depot facilities. Equipment determined not cost effective to 
repair will be made available for foreign military sales or the Defense 
Reutilization and Marketing Service (DRMS).
    Ms. Giffords. Given the substantially improved survivability of 
MRAP-like vehicles and the potential for future enemies to utilize 
similar asymmetric means, how are you incorporating successes of these 
vehicle designs into the Marine Expeditionary Family of Fighting 
Vehicles?
    General Brogan. There is no Marine Expeditionary Family of Fighting 
Vehicles program. The Marine Corps' HMMWV and MTVR fleet has already 
been up-armored. Armor kits are available for our heavy tactical 
vehicle fleet, which consists of the LVS/LVSR. The Marine Corps has 
ongoing programs to upgrade the LAV and Tank fleets to address current 
and projected mission requirements.
    Ms. Giffords. Are the Army and Marine Corps closely coordinating 
efforts to design future combat vehicles? If not, why not?
    General Brogan. Yes, the Marine Corps is working closely with the 
Army on future combat vehicle programs--JLTV. The JLTV program is Army 
lead with Marine Corps participation.
    Ms. Giffords. Given that we entered this war with little to no 
armored vehicles for our servicemembers who perform vital support and 
logistics functions, what are your plans for hardening future logistics 
and combat support vehicles?
    General Brogan. The Marine Corps is currently engaged in a study to 
determine future armoring requirements as well as a proposed strategy 
to meet the required capabilities of the future tactical wheeled 
vehicle fleet. The study will address issues including protection 
scalability, vehicle weight, square and cube, and expeditionary 
deployability.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. TSONGAS
    Ms. Tsongas. Please provide budgetary details since 2004 for all 
funding for body armor S&T, R&D and where (program element) it resides.
    General Fuller. The budgetary details for R&D are provided, by 
Fiscal Year (FY): FY 2004, Program Element 0603747A (Soldier Support 
and Survivability) with a Program Amount of $1,029,639; FY 2005, 
Program Element 0603747A (Soldier Support and Survivability), with 
Program Amount of $1,869,509; FY 2005, Program Element 0604713A (Combat 
Feeding, Clothing and Equipment), with a Program Amount of $1,588,935; 
FY 2006, Program Element 0603827A (Soldier Systems--Advanced 
Development), with a Program Amount of $791,000.00; FY 2006, Program 
Element 0604601A (Infantry Support Weapons), with a Program Amount of 
$3,472,410; FY 2007, Program Element 0604601A (Infantry Support 
Weapons), with a Program Amount of $4,381,345; FY 2007, Program Element 
0603827A (Soldier Systems--Advanced Development), with Program Amount 
of $530,000; FY 2008, Program Element 0603827A (Soldier Systems--
Advanced Development), with a Program Amount of $1,562,019; FY 2008, 
Program Element 0604601A (Infantry Support Weapons), with a Program 
Amount of $2,185,499; FY 2009, Program Element 0603827A (Soldier 
Systems--Advanced Development), with a Program Amount of $1,505,000 and 
FY 2009 to date, Program Element 0604601A (Infantry Support Weapons), 
with a Program Amount of $2,659,163.
    Ms. Tsongas. Please provide budgetary details since 2004 for all 
funding for body armor S&T, R&D and where (program element) it resides.
    General Brogan. The body armor R&D is funded by PE 0206623M Marine 
Corps Ground Combat/Supporting Arms Systems in the Research, 
Development, Test & Evaluation, Navy budget. The funding contained in 
the President's Budget for R&D in support of body armor is as follows:

    FY04: 1.0M
    FY05: 1.0M
    FY06: 2.7M
    FY07: 4.4M
    FY08: 5.6M
    FY09: 7.0M

    This funding was requested for the exploration of new commercial 
technologies that can be inserted into current body armor to reduce 
weight, increase survivability, lethality, and mobility. Both torso and 
head/neck ballistic studies will be conducted to assess blunt trauma/
shock forces on the body and how ballistic materials/designs can afford 
the most protection while reducing weight. Modeling and simulation 
initiatives will baseline current equipment and enable configuration/
compatibility management of new equipment. Specific R&D efforts for 
body armor include but are not limited to the following efforts:

    <bullet>  Next generation equipment design

    <bullet>  Combat casualty trend analysis and headborne integration 
efforts

    <bullet>  Headborne injury trend and analysis, helmet sensor data 
collection and analysis

    <bullet>  Prototyping skills, Computer Aided Design (CAD) pattern 
development, and sizing/fit standardization for body armor components

    Additionally, the following federal/government entities provide S&T 
support via funding, program management, or program execution:

    <bullet>  Office of Naval Research (ONR)

    <bullet>  Naval Research Lab (NRL)

    <bullet>  USMC Small Business Innovative Research Office (SBIR)

    <bullet>  U.S. Army Natick Soldier Research, Development & 
Engineering (NSRDE)

    <bullet>  Marine Corps Warfighting Lab (MCWL)

    Ms. Tsongas. Snipers pose a serious threat to our armed forces 
because of their precision and elusiveness. NATO's International 
Security Assistance Force, which leads coalition forces in Afghanistan, 
said last month that coalition deaths have risen sharply over the last 
several months, mainly due to the increase in the Taliban's marksmen. 
There are proven technologies that can detect a threat's location, and 
allow our soldiers and Marines to take preventive action that would 
undoubtedly save American lives. Last year's Supplemental included $400 
million for items such as Vanguards vehicles, Boomerangs, Decoy 
Boomerangs, and Sniper Defeat Fixed Site systems. Could you discuss the 
Army's plans for spending these funds and its overall intentions for 
fully funding sniper detection and protection systems? Will the Army's 
budget include additional funding for sniper defeat systems?
    General Lennox and General Fuller. The Army has invested nearly 
$447M in FY08 Other Procurement, Army (OPA) funding to purchase various 
Sniper Defeat equipment in response to an urgent need from units 
deployed to Iraq/Afghanistan ($400M was appropriated in the December 
2007 Supplemental and nearly $47M in the July 2008 Supplemental). In 
addition to Vanguards, Boomerangs, and Decoy Boomerangs, the Army is in 
the process of fielding the Soldier Wearable Acoustic Targeting Systems 
(SWATS), Handheld Thermal Imagers, Binoculars, Nets/Veils, and 3x 
magnifiers for the Close Combat Optic. This year, the Army has 
allocated over $52 million in Operations and Maintenance, Army (OMA) 
funding for the sustainment of the aforementioned equipment and will 
continue sustaining these items for the foreseeable future.
    The Army has responded to every validated urgent need for Sniper 
Defeat equipment from deployed units and will continue to do so through 
the Senior Budget Requirements and Program Board (BRP). Furthermore, 
the Army has decided to transition two Sniper Defeat technologies into 
formal acquisition programs. The Army recently approved a requirement 
for a Gunshot Detection System (GSD) and approval for an Individual 
Gunshot Detector (IGD) is pending. These Army plans to compete these 
programs for funding during the development of the FY12-17 Program 
Objective Memorandum (POM).
    The Army's Sniper Defeat Integrated Capabilities Development Team 
(ICDT) continues to monitor the enemy sniper threat and emerging 
technologies to counter that threat. The Army's Asymmetric Warfare 
Group (AWG) and the Rapid Equipping Force (REF) are members of the 
Sniper Defeat ICDT and assist in developing and bringing promising new 
Sniper Defeat technology into the Army. Should new Sniper Defeat 
technology prove viable, deployed units may document the capability 
required with an Operational Needs Statement (ONS) and request the 
equipment through the BRP process. Once fielded, the Army continues to 
assess select Sniper Defeat technology via the Capabilities Development 
for Rapid Transition (CDRT) process. Based on user feedback from 
operational assessments, the CDRT council makes recommendations to 
senior Army leadership on whether the technology should remain in 
theater as a niche item, terminate, or transition into a formal 
acquisition program of record.

                                  <all>

</pre></body></html>
